No. _______
In The

Supreme Court of the United States
-------------------------- ♦ ---------------------------

LEXINGTON H-L SERVICES, INC.
D/B/A LEXINGTON HERALD LEADER,
Petitioner,

v.

LEXINGTON-FAYETTE URBAN
COUNTY GOVERNMENT,
Respondent.
-------------------------- ♦ --------------------------

On Petition for Writ of Certiorari to the
United States Court of Appeals
For the Sixth Circuit
-------------------------- ♦ --------------------------

PETITION FOR WRIT OF CERTIORARI
-------------------------- ♦ --------------------------

John A. Bussian
Counsel of Record
THE BUSSIAN LAW FIRM, PLLC
Wells Fargo Capitol Center
150 Fayetteville Street, Suite 1700
Raleigh, North Carolina 27601
(919) 829-4900
jbussian@aol.com
Jeffery T. Nobles
HUSCH BLACKWELL LLP
600 Travis Street, Suite 2350
Houston, Texas 77002
(713) 525-6239
jeff.nobles@huschblackwell.com
Counsel for Petitioner

Dated: July 16, 2019

THE LEX GROUPDC i 1050 Connecticut Avenue, N.W. i Suite 500, #5190 i Washington, D.C. 20036
(202) 955-0001 i (800) 856-4419 i www.thelexgroup.com

i
QUESTION PRESENTED
The Community News is a free community
newsweekly that has been distributed to homes in the
Lexington, Kentucky area for several years by a
traditional method of newspaper delivery, “driveway
delivery,” by which news carriers throw the paper
onto the driveways or yards of area homes. Residents
who do not wish to receive The Community News,
however, are able to opt out of delivery. In 2017, the
Lexington-Fayette Urban County Government (“the
County”) enacted an Ordinance prohibiting driveway
delivery of The Community News; instead, the County
requires delivery of “unsolicited” materials, including
the weekly newspaper, to one of six specified locations
at each residence. Pet. App. 29a. The nature of the
permitted delivery locations effectively requires the
newspaper to be distributed by hand delivery.
The restrictions imposed by the County and
approved by the decisions below place the
constitutionally protected distribution of news and
information in serious jeopardy. The Sixth Circuit’s
approval of the Ordinance as a reasonable time, place,
and manner restriction cannot be squared with the
First Amendment, a longstanding body of this Court’s
jurisprudence applying free speech and free press
protections to the distribution of news and
information, and the substantial weight of authority
in state and federal courts that have considered the
issue. See Martin v. City of Struthers, 319 U.S. 141
(1943) (holding that the First Amendment protects
the direct distribution of written information to
homeowners). The conflict of authority created by the
decision below and the lingering uncertainty
regarding the reasonable limits on time, place, and

ii
manner regulations of news delivery call for this
Court’s guidance—a need that is particularly acute in
today’s fast-changing print news marketplace.
Accordingly, the Petition presents the following
question:
Whether a municipal ordinance flatly
prohibiting driveway delivery of a
community newspaper but specifying
alternative methods of hand delivery
represents a reasonable regulation of the
time, place, and manner of delivery
consistent with the First Amendment.

iii
LIST OF PARTIES
The parties below are fully listed in the caption.
RULE 29.6 STATEMENT
Petitioner Lexington H-L Services, Inc. is 100%
owned by the McClatchy Company, a publicly owned
corporation.
PROCEEDINGS IN OTHER COURTS
x

Lexington H-L Services, Inc. v. Lexington-Fayette
Urban County Government, No. 5:17-CV-154KKC, U.S. District Court for the Eastern District
of Kentucky.
Order granting preliminary
injunction entered Apr. 28, 2017.

x

Lexington H-L Services, Inc. v. Lexington-Fayette
Urban County Government, No. 17-5562, U.S.
Court of Appeals for the Sixth Circuit. Judgment
entered Jan. 9, 2018.

x

Lexington H-L Services, Inc. v. Lexington-Fayette
Urban County Government, No. 17-5562, U.S.
Court of Appeals for the Sixth Circuit. Order
denying petition for rehearing entered Jan. 30,
2018.

x

Lexington H-L Services, Inc. v. Lexington-Fayette
Urban County Government, No. 17A873,
United States Supreme Court. Order denying
application for stay entered Feb. 20, 2018.

x

Lexington H-L Services, Inc. v. Lexington-Fayette
Urban County Government, No. 5:17-CV-154KKC, U.S. District Court for the Eastern District
of Kentucky. Judgment entered July 19, 2018.

iv
x

Lexington H-L Services, Inc. v. Lexington-Fayette
Urban County Government, No. 18-5851, U.S.
Court of Appeals for the Sixth Circuit. Order and
judgment entered Apr. 17, 2019.

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED .......................................... i
LIST OF PARTIES ....................................................iii
RULE 29.6 STATEMENT .........................................iii
PROCEEDINGS IN OTHER COURTS ....................iii
TABLE OF CONTENTS............................................. v
TABLE OF AUTHORITIES .................................... viii
OPINIONS BELOW ................................................... 1
JURISDICTION ......................................................... 1
RELEVANT CONSTITUTIONAL PROVISION ....... 1
STATEMENT OF THE CASE ................................... 2
A.

Factual Background .............................. 2

B.

Procedural history ................................. 4

REASONS FOR GRANTING THE WRIT ................. 6
I.

THE SIXTH CIRCUIT’S DECISION
IS CONTRARY TO THIS COURT’S
SETTLED JURISPRUDENCE AND
THE WEIGHT OF APPELLATE
AUTHORITY ALLOWING ONLY
LIMITED AND REASONABLE
REGULATION OF DRIVEWAY
DELIVERY OF NEWSPAPERS ........... 7

vi

II.

A.

Traditional driveway delivery
of newspapers is essential to
the weighty free speech and
free press interests protected
by the First Amendment ............ 7

B.

The Sixth Circuit’s decision
conflicts with the body of
law consistently applying the
Martin framework to attempts
to regulate the time, place,
and manner of driveway
delivery of print news ................. 9

THIS CASE IS A PROPER
VEHICLE TO CLARIFY THE
PROTECTION
AFFORDED
DRIVEWAY DISTRIBUTION OF
NEWS AND THE SCOPE OF
ALLOWABLE TIME, PLACE, AND
MANNER REGULATION .................. 22

CONCLUSION ......................................................... 28
APPENDIX:
Order of
The United States Court of Appeals
For the Sixth Circuit
entered April 17, 2019......................... 1a
Judgment of
The United States Court of Appeals
For the Sixth Circuit
entered April 17, 2019......................... 3a

vii
Opinion and Order of
The United States District Court
For the Eastern District of Kentucky
entered July 19, 2018 .......................... 4a
Judgment of
The United States District Court
For the Eastern District of Kentucky
entered July 19, 2018 ........................ 24a
Ordinance No. 25-2017 ................................ 26a
Excerpts of Transcript of Motion/
Evidentiary Hearing before
The Honorable Karen K. Caldwell
on April 19, 2017 ............................... 33a
Excerpts of Defendant’s Response to
Plaintiff’s First Requests for Admission,
Interrogatories and Requests for
Production of Documents
undated .............................................. 43a
Excerpts of Transcript of
Deposition of Ronnie Bastin
on April 26, 2018 ............................... 45a
Excerpts of Transcript of
Deposition of William Farmer
on April 27, 2018 ............................... 49a

viii
TABLE OF AUTHORITIES
Page(s)
CASES
Act Now to Stop War and End Racism Coalition
and Muslim American Society Freedom
Foundation v. District of Columbia,
846 F.3d 391 (D.C. Cir. 2017) ........................ 18
Ad World, Inc. v. Township of Doyleston,
672 F.2d 1136 (3d Cir. 1982) ............... 9, 11, 21
Chappel v. Montgomery Cty. Fire Prot. Dist. No. 1,
131 F.3d 564 (6th Cir. 1997) .......................... 24
City of Fresno v. Press Communications, Inc.,
36 Cal.Rptr.2d 456 (Cal. App. 1994) ............. 12
City of Ladue v. Gilleo,
512 U.S. 43 (1994) .................................. passim
Distribution Sys. of Am., Inc. v.
Vill. of Old Westbury,
862 F. Supp. 950 (E.D.N.Y. 1994) ...... 14-15, 17
Ex parte Jackson,
96 U.S. 727 (1877) ........................................ 6, 8
Grosjean v. American Press Co.,
297 U.S. 233 (1936) .......................................... 7
Lovell v. City of Griffin,
303 U.S. 444 (1938) .......................................... 6
Martin v. City of Struthers,
319 U.S. 141 (1943) ................................ passim
McCullen v. Coakley,
573 U.S. 464 (2014) ....................... 17-18, 19, 22

ix
Miller v. City of Laramie,
880 P.2d 594 (Wyo. 1994) ........................ 12, 21
New York Times Co. v. Sullivan,
376 U.S. 254 (1964) .......................................... 7
Parks v. Finan,
385 F.3d 694 (6th Cir. 2004) .......................... 18
People v. Walkenhorst,
299 N.Y.S.2d 912 (N.Y. App. Term 1969) ..... 12
Reddy v. Plain Dealer Pub. Co.,
991 N.E.2d 1158 (Ohio App. 2013) .... 2, 9, 12, 23
Riley v. National Federation of Blind of N. C., Inc.,
487 U.S. 781 (1988) ................................... 17-18
State v. Today Newspapers,
443 A.2d 787 (N.J. Law. Div. 1982) ......... 11, 22
Statesboro Pub. Co., Inc. v. City of Sylvania,
516 S.E.2d 296 (Ga. 1999) ............................. 14
The News & Observer Pub. Co. v.
Raleigh-Durham Airport Auth.,
612 F.3d 301 (4th Cir. 2010) ............................ 6
Tillman v. Distribution Sys. of Am., Inc.,
648 N.Y.S.2d 630 (N.Y. App. Div. 1996) ......... 2
Toms River Pub. Co. v.
Borough of Manasquan, Monmouth County,
316 A.2d 719 (N.J. Ch. Div. 1974) ................. 11
Van Nuys Pub. Co. v. City of Thousand Oaks,
489 P.2d 809 (Cal. 1971) ........... 8, 11, 13-14, 22
CONSTITUTIONAL PROVISION
U.S. CONST. amend. I ........................................ passim

x
STATUTE
28 U.S.C. § 1254(1) ..................................................... 1
OTHER AUTHORITIES
Leslie Kendrick, Nonsense on Sidewalks:
Content Discrimination in McCullen v.
Coakley, 2014 Sup. Ct. Rev. 215 (2014) ................... 19
“NAA’s 2015 Circulation Facts, Figures & Logic,”
Newspaper Association of America (2015),
http://www.newsmediaalliance.org/wpcontent/uploads/2015/07/NAA-FactsFigures-Logic-2015_v3.pdf...................................25, 26, 27
“Newspapers Fact Sheet,”
Pew Research Center (June 13, 2018),
https://www.journalism.org/fact-sheet/
newspapers/ ........................................................ 24, 27
Robert Post, Recuperating First Amendment
Doctrine, 47 Stan. L. Rev. 1249 (1995) .................... 19
“Small-Town American Newspapers are
surprisingly resilient,”
The Economist (June 23, 2018),
https://www.economist.com/unitedstates/2018/06/23/small-town-americannewspapers-are-surprisingly-resilient..................... 27
“Social media outpaces print newspapers
in the U.S. as a news source,”
Pew Research Center (Dec. 10, 2019),
https://www.pewresearch.org/facttank/2018/12/10/social-media-outpaces-printnewspapers-in-the-u-s-as-a-news-source/ ................ 24

1
PETITION FOR WRIT OF CERTIORARI
Petitioner Lexington H-L Services, Inc. d/b/a
Lexington Herald-Leader (“the Herald-Leader” or
“Petitioner”) respectfully petitions the Court for a
writ of certiorari to review the judgment of the United
States Court of Appeals for the Sixth Circuit.
OPINIONS BELOW
The Sixth Circuit’s opinion and order appears
at 920 F.3d 1126 (6th Cir. 2019). Pet. App. 1a-2a. The
opinion and order of the United States District Court
for the Eastern District of Kentucky is found at
Lexington H-L Services, Inc. v. Lexington-Fayette
Urban County Gov’t, 329 F. Supp. 3d 333 (E.D. Ky.
2018). Pet. App. 4a-25a.
JURISDICTION
The Sixth Circuit entered the judgment for
which review is sought on April 17, 2019. Pet. App.
3a. This Court has jurisdiction pursuant to 28 U.S.C.
§ 1254(1).
RELEVANT CONSTITUTIONAL PROVISION
The First Amendment to the United States
Constitution provides: “Congress shall make no law
respecting an establishment of religion, or prohibiting
the free exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people
peaceably to assemble, and to petition the
Government for a redress of grievances.”

2
STATEMENT OF THE CASE
A.

Factual Background.

The
Herald-Leader
publishes
several
newspapers, including The Community News, a free
local weekly that contains local news and advertising
for the City of Lexington, Kentucky, Fayette County,
and surrounding areas. Petitioner distributes The
Community News to roughly 130,000 homes and
businesses each week. Pet. App. 5a. Among other
means of distribution, the Herald-Leader uses
“driveway delivery”—the familiar and traditional
method of newspaper delivery, usually by automobile
(and formerly by bicycle), in which the paper is tossed
into a residential driveway or yard—to ensure that
The Community News reaches local readers. Pet.
App. 34a-35a.
Residents who do not wish to receive the
newsweekly are provided with a simple mechanism to
opt out of weekly delivery.1 The district court
described the opt-out mechanism employed by the
Herald-Leader:
Other publications use similar notice and opt-out methods. See,
e.g., Reddy v. Plain Dealer Pub. Co., 991 N.E.2d 1158, 1160 (Ohio
App. 2013) (free weekly publication included “[p]rominently
displayed” notice on the first page of the paper containing “a local
telephone number and a toll free number for the recipients to
call for any delivery concerns”). Of course, when a resident gives
notice that he or she does not want to receive the newspaper, the
publisher no longer has a right to continue delivery. See, e.g.,
Tillman v. Distribution Sys. of Am., Inc., 648 N.Y.S.2d 630, 632
(N.Y. App. Div. 1996) (affirming injunction obtained by resident
and holding “that neither a publisher nor a distributor has any
constitutional right to continue to throw a newspaper onto the
property of an unwilling recipient after having been notified not
to do so”).
1

3
[T]he Herald-Leader maintains a “Do
Not Deliver” database. There are a
number of ways that residents may be
added to the database. The front page of
each issue contains a phone number and
email for residents to contact and optout of delivery. As of April 2017, the
database contained 2,899 residents who
had opted-out of delivery. Households
are also removed if they are listed
as “For Sale.” And Herald-Leader’s
distribution partner is instructed not to
deliver a new issue of The Community
News if there is already one in the
driveway from a previous delivery.
Pet. App. 5a. The Herald-Leader instructed the
independent contractors who deliver The Community
News that the paper should not be distributed to any
household that has opted out of home delivery, and it
implemented rigorous quality controls to ensure that
its instructions were followed.
Problems with
inadvertent delivery were almost completely resolved
by those quality controls. Pet. App. 38a-39a; 52a.
Furthermore, the record evidence established that
driveway delivery has not led to any perceptible
problems with crime, litter, or sewage. Pet. App. 43a44a.
Nevertheless, in May 2017, Respondent
Lexington-Fayette Urban County Government (“the
County”) enacted an Ordinance (Pet. App. 26a-32a)
that prohibits driveway delivery of “unsolicited
materials.” The Ordinance permits delivery of such
materials only to six specified locations:

4
(1) On a porch, if one exists, nearest the
front door; or
(2) So that such materials are securely
attached to the front door; or
(3) Through a mail slot on the front door
or principal structure, if one exists . . .;
or
(4) Between the exterior front door, if
one exists and is unlocked, and the
interior front door; or
(5) Where permitted, in a distribution
box located on or adjacent to the
premises; or
(6) Personally with the owner, occupant,
and/or lessee of the premises.
Pet. App. 29a.
Lexington’s free daily newspaper, The Herald
Leader, which is delivered in driveways as an
important way to promote circulation of the paper to
non-subscribers, now is also banned by the
Ordinance.
B.

Procedural history.

Before the Ordinance took effect, the HeraldLeader filed suit to enjoin its implementation,
arguing that the Ordinance would violate its First
Amendment free speech and free press rights.
Petitioner sought a preliminary injunction to prevent
enforcement of the Ordinance while the district court
considered its constitutional claim.

5
The district court initially granted the HeraldLeader’s motion and enjoined enforcement of the
Ordinance, concluding that the Herald-Leader had
shown a likelihood of success on the merits of its
constitutional claim. The Sixth Circuit reversed (879
F.3d 224 (6th Cir. 2018), reh’g denied (Jan. 30, 2018)),
disagreeing that the Herald-Leader was likely to
succeed on the merits of its challenge to the
Ordinance because, the appellate court reasoned, it
was narrowly tailored to further two substantial
government interests: reducing visual blight and
reducing litter. Id. at 228-31. The Sixth Circuit
further reasoned that the Ordinance left open “ample
alternative channels of communication,” both because
it imposed no limit on delivery of written materials
with consent of the recipient and because it permitted
unsolicited materials to be distributed via the six
methods described in the Ordinance. Id. at 233-34.
The Sixth Circuit vacated the injunction and
remanded the case to the district court.
On remand, the district court granted
summary judgment in favor of the County, concluding
that the Ordinance was content-neutral, was
narrowly tailored to advance the government’s
interest in reducing visual blight and litter, and left
open ample alternative channels of distribution. Pet.
App. 9a-17a. The Sixth Circuit affirmed the district
court’s order, finding that the trial court had
“properly addressed, analyzed, and disposed of” the
Herald-Leader’s First Amendment arguments. Pet.
App. 2a.

6
REASONS FOR GRANTING THE WRIT
The circulation of newspapers has long been
recognized as an essential First Amendment free
speech and free press right. “Liberty of circulating is
as essential to that freedom as liberty of publishing;
indeed, without the circulation, the publication would
be of little value.” Lovell v. City of Griffin, 303 U.S.
444, 452 (1938) (quoting Ex parte Jackson, 96 U.S.
727, 733 (1877)); The News & Observer Pub. Co. v.
Raleigh-Durham Airport Auth., 612 F.3d 301, 302
(4th Cir. 2010). For that reason, this Court has
decreed that freedom of distribution “must be fully
preserved”—and can be limited only by “reasonable
police and health regulations of time and manner of
distribution.” Martin v. City of Struthers, 319 U.S.
141, 147 (1943) (emphasis added).
Since Martin, a substantial body of appellate
decisions have rejected numerous government
attempts to restrict the distribution of free,
unsolicited newspapers. Indeed, until the Sixth
Circuit’s decision in this case, federal and state
appellate courts routinely had disapproved of
government attempts to prohibit driveway (and other
residential) distribution of newspapers based on
asserted interests in limiting crime, litter, and visual
blight. See infra, pp. 11-12. The Sixth Circuit’s
conclusion that the Ordinance is the sort of
“reasonable” time, place, and manner regulation
narrowly permitted by Martin cannot be squared with
those decisions, and its reasoning casts doubt on the
limits of allowable regulation of newspaper delivery
that is particularly intolerable in today’s fastchanging print news marketplace.

7
Absent this Court’s review, the Sixth Circuit’s
decision poses a serious threat to the First
Amendment rights of newspapers and their readers
to newspaper home delivery, calls into question a
longstanding,
traditional
method
of
news
distribution, and gives rise to grave uncertainty about
the rigor with which courts must scrutinize intrusions
on First Amendment rights to ensure that they are
both sufficiently narrowly tailored to serve
articulated government interests and also leave open
adequate alternative channels of communication.
This Court’s review is necessary.
I.

THE SIXTH CIRCUIT’S DECISION IS
CONTRARY TO THIS COURT’S SETTLED
JURISPRUDENCE AND THE WEIGHT OF
APPELLATE AUTHORITY ALLOWING
ONLY LIMITED AND REASONABLE
REGULATION OF DRIVEWAY DELIVERY
OF NEWSPAPERS.
A.

Traditional driveway delivery of
newspapers is essential to the
weighty free speech and free press
interests protected by the First
Amendment.

This Court has long recognized the important
role played by print newspapers in advancing First
Amendment interests. See, e.g., New York Times Co.
v. Sullivan, 376 U.S. 254, 271 (1964) (“[W]e consider
this case against the background of a profound
national commitment to the principle that debate on
public issues should be uninhibited, robust, and wideopen.”); Grosjean v. American Press Co., 297 U.S. 233,
250 (1936) (“A free press stands as one of the great
interpreters between the government and the people.

8
To allow it to be fettered is to fetter ourselves.”).
Equally importantly, the Court has long held that
distribution of news commands robust First
Amendment protection. “Liberty of circulating is as
essential to that freedom [of the press] as liberty of
publishing; indeed, without the circulation, the
publication would be of little value.” Ex parte
Jackson, 96 U.S. at 733.
Direct delivery of newspapers to residents’
homes is a time-honored method of distributing news
and information to local communities, and it has long
enjoyed vigorous protection against government
attempts to constrain it. State and federal courts
alike have acknowledged as much:
Although the public streets, parks and
other public places have sometimes
been characterized as the “traditional”
grounds for the exercise of free
expression, . . . courts have long
recognized that, in practice, house-tohouse distribution of written material
constitutes one of the principal means of
implementing the First Amendment
right of communication, and historically
have afforded constitutional protection
to such distribution.
Van Nuys Pub. Co. v. City of Thousand Oaks, 489 P.2d
809, 812 (Cal. 1971) (citation omitted). More recently,
a state appellate court rejected a homeowner’s claim
that the distribution of a free newspaper constituted
the tort of trespass, based on First Amendment
principles recognized in Martin and the “wellaccepted and time-honored practice” of door-to-door
newspaper delivery:

9
Holding The Plain Dealer liable for
trespassing would turn various groups of
citizens
who
similarly distribute
literature door to door without specific
consent from the homeowners into
trespassers. As the Supreme Court of
United States reminded us, “[d]oor to
door distribution of circulars is essential
to the poorly financed causes of little
people.” [Martin], 319 U.S. at 145–146.
Although The Plain Dealer is a
commercial enterprise, we do not see
why it should be treated differently than
other distributors of literature under
this well-accepted and time-honored
practice.
Reddy, 991 N.E.2d at 1164. See also, e.g., Ad World,
Inc. v. Township of Doyleston, 672 F.2d 1136, 1141 (3d
Cir. 1982) (considering the plaintiff’s use of “the time
honored method of door to door distributions to
deliver” free, weekly community newspaper).
The Sixth Circuit’s approval of what amounts
to a blanket ban on the time-honored method of
driveway distribution of print news ignores decades of
First Amendment jurisprudence.
B.

The
Sixth
Circuit’s
decision
conflicts with the body of law
consistently applying the Martin
framework to attempts to regulate
the time, place, and manner of
driveway delivery of print news.

1.
It has long been settled that the
distribution of news must be preserved against

10
unjustified government encroachment.
The
constitutional rule that distribution of news can be
limited only by reasonable government regulation has
deep roots. As Martin explained 75 years ago,
“[f]reedom to distribute information to every citizen
wherever he desires to receive it is so clearly vital to
the preservation of a free society that, putting aside
reasonable police and health regulations of time and
manner of distribution, it must be fully preserved.”
319 U.S. at 147 (emphasis added).
Martin held unconstitutional an Ohio
ordinance limiting the distribution of handbills,
circulars, or other advertisements to homeowners.
319 U.S. at 142. The Court identified three categories
of parties whose interests were directly implicated by
the Ohio ordinance: (1) the distributor of the circulars
in question (there, a Jehovah’s Witness distributing
leaflets advertising a religious meeting); (2) the
“individual householder,” who had the right “to
determine whether she is willing to receive [the]
message”; and (3) “the community,” which “by [the
challenged] ordinance offers to protect the interests of
all citizens, whether particular citizens want that
protection or not.” Id. at 143-44. Evaluating whether
the Ohio ordinance was a reasonable restriction on
distribution narrowly tailored to serve the
government’s asserted interests, Martin noted a
simple remedy for those “individual householders” in
the second category who were, in fact, unwilling to
receive the message the speaker sought to distribute:
Residents who do not wish to receive unsolicited
information, including handbills and newspapers, at
home, are permitted to make an appropriate
indication that they do not wish to be disturbed. Id.
at 148. This remedy “leaves the decision as to

11
whether distributers of literature may lawfully call at
home where it belongs—with the homeowner….” Id.
Martin established a constitutional framework that
has been widely followed by state and federal courts,
and relied upon by the newspaper industry, for 75
years.
Today, there can be no doubt that only
reasonable time, place, and manner regulation rooted
in government health, safety, and welfare concerns
can be allowed to limit a publisher’s First Amendment
right to distribute its speech. Unsurprisingly, then,
until the Sixth Circuit’s decision in this case, state
and federal appellate courts uniformly rejected similar
attempts to restrain the distribution of newspapers to
local residents. See Van Nuys Pub. Co., 489 P.2d at
810-11 (holding anti-littering ordinance prohibiting
“distribut[ion]” and “deliver[y]” of newspapers and
other materials on private property without prior
permission of homeowner unconstitutional); Ad
World, 672 F.2d at 1138, 1140-41 (holding municipal
ordinance that prohibited “placing [advertising]
material at [a private] residence, on the property or
on the residential mailbox,” absent prior request or
consent of the resident unconstitutional as applied to
distribution of free community newspaper); Toms
River Pub. Co. v. Borough of Manasquan, Monmouth
County, 316 A.2d 719, 726 (N.J. Ch. Div. 1974)
(enjoining enforcement of municipal anti-littering
ordinance prohibiting delivery of “any paper, circular
or printed material of any kind at any residence”
without prior request of the resident because “its
impact is far broader than is necessary to achieve” the
government’s stated goal of reducing litter); State v.
Today Newspapers, 443 A.2d 787, 789-91 (N.J. Law.
Div. 1982) (reversing weekly newspaper distributor’s

12
conviction under unconstitutionally vague ordinance
prohibiting delivery to “private premises which are
temporarily or continuously uninhabited or vacant”
and finding that ordinance did not leave open
adequate alternative channels of communication);
Miller v. City of Laramie, 880 P.2d 594, 595, 598 (Wyo.
1994) (reversing conviction of publisher of free
newspaper under municipal littering ordinance,
reasoning that ordinance was “not a reasonable time,
place and manner restriction” on distribution of
newspaper, and holding that “the minor burden of
receiving Miller’s paper was indisputedly outweighed
by his right of free speech”); City of Fresno v. Press
Communications, Inc., 36 Cal.Rptr.2d 456, 459 (Cal.
App. 1994) (holding ordinance restricting door-to-door
distribution of specified written materials, including
“unauthorized
newspapers,”
unconstitutional);
Reddy, 991 N.E.2d at 1160, 1162 (reversing
trespassing conviction of distributor of free weekly
publication that “deposit[ed] the publication in [each
resident’s] front yard”); cf. People v. Walkenhorst, 299
N.Y.S.2d 912, 913 (N.Y. App. Term 1969) (per curiam)
(reversing graduate students’ conviction for
distributing free “experimental” college newspapers
to private residences because the publication did not
fall within the categories specified in the ordinance).
The County’s ban on driveway distribution,
and the Sixth Circuit’s decision permitting it, cannot
withstand scrutiny under the settled Martin
framework, nor can it be squared with the substantial
body of decisions invalidating unreasonable
restraints on the distribution of news.
2.
In the news distribution setting, the
substantial body of jurisprudence built on Martin

13
recognizes that the free speech and press rights of
news distributors must be given appropriate weight
when evaluated against government assertions—like
those made by the County in this case—that driveway
delivery promotes litter and crime. As Martin
emphasized, the mere possibility of litter or crime is
not a sufficiently weighty interest to support a
significant infringement on fundamental expressive
rights: “While door to door distributers of literature
may be either a nuisance or a blind for criminal
activities, they may also be useful members of society
engaged in the dissemination of ideas in accordance
with the best tradition of free discussion.” 319 U.S. at
145 (emphasis added).
Numerous decisions affirming the right to
driveway delivery following Martin have held that
restrictions on the circulation of newspapers to
promote asserted government interests in fighting
litter or crime were unconstitutional for lack of the
necessary narrow tailoring. Because there are less
speech-restrictive methods for reducing litter, the
First Amendment does not allow municipal
governments to simply prohibit driveway delivery
altogether:
A city cannot … preserve “privacy” (or
attack “litter”) by prohibiting all
distribution without “prior consent,” as
the City of Thousand Oaks has
attempted to do here. The potentially
devastating effect on First Amendment
rights of such a provision necessitates
that the city adopt a less restrictive
alternative method to achieve its
legitimate goals.

14
Van Nuys Pub. Co., 489 P.2d at 815-16 (footnote
omitted). Citing Martin, the Georgia Supreme Court
reached a similar conclusion:
The Sylvania ordinance bans a
substantial amount of speech that
residents may want to hear and that the
city has not shown creates litter or
destroys its beauty…. [T]he city has
other ways to prevent litter caused by the
home delivery of papers without
unreasonably infringing on freedom of
speech or the press. The city could
require the publisher to retrieve papers
that residents did not pick up in a timely
manner, prosecute the publisher for
papers found littering the streets or
drainage ditches, or punish residents
who fail to pick up litter in their own
yards.
Statesboro Pub. Co., Inc. v. City of Sylvania, 516
S.E.2d 296, 298 (Ga. 1999). And more recently, the
Eastern District of New York rejected the very
arguments the County offered in this case regarding
the government’s claimed interest in prohibiting news
delivery to reduce litter and crime:
[I]n the Court’s view neither is the
ordinance narrowly tailored to serve the
Village
interests
in
preventing
burglaries or litter. With respect to
preventing burglaries, the Court is
unconvinced that the ordinance will
substantially affect the rate [of]
burglaries. Indeed, there is an
inconsistency in the Village’s restricting

15
the distribution of unsolicited material
on the premise that such material
accumulates at a doorstep or mailbox
and may foster a burglary, while
allowing the accumulation of solicited
material at a mailbox or doorway.
Likewise, the Court is unconvinced that
the ordinance is narrowly tailored to
prevent litter. Solicited materials can
blow off a porch or mail box and create
litter as well. Similar contentions
concerning the prevention of litter were
rejected by the Supreme Court in
Martin, 319 U.S. at 143, 63 S.Ct. at 863
(The privilege of the freedom to
distribute may not be withdrawn “even
if it creates a minor nuisance for a
community of cleaning litter from its
streets.”), and in Schneider v. State of
New Jersey, 308 U.S. 147, 162, 60 S.Ct.
146, 151, 84 L.Ed. 155 (1939) (the
burden imposed on a city for cleaning
litter as an indirect consequence of the
distribution of leaflets does not outweigh
the First Amendment right to distribute
information to those who want to receive
it; “There are obvious methods of
preventing littering. Amongst these is
the punishment of those who actually
throw papers on the streets.”).
Distribution Sys. of Am., Inc. v. Vill. of Old Westbury,
862 F. Supp. 950, 960 (E.D.N.Y. 1994).
The Sixth Circuit reached a different
determination in this case on the reasoning that the

16
Ordinance reasonably furthered the County’s interest
in preventing or reducing litter and visual blight. Pet.
App. 2a; 11a-15a. That decision is in conflict with the
weight of authority applying Martin’s rationale,
infringes on the constitutionally protected speech and
press rights of publishers, and turns the Martin
analysis on its head.2 The annoyance some residents
may experience in disposing of an unwanted
newspaper does not outweigh the First Amendment
rights of The Community News and its willing
recipients:
Martin’s caution against paternalistic regulation of speech to
“protect” homeowners rings true here:

2

Our decision that Ladue’s ban on almost all
residential signs violates the First Amendment
by no means leaves the City powerless to address
the ills that may be associated with residential
signs. It bears mentioning that individual
residents themselves have strong incentives to
keep their own property values up and to prevent
“visual clutter” in their own yards and
neighborhoods—incentives markedly different
from those of persons who erect signs on others’
land, in others’ neighborhoods, or on public
property. Residents’ self-interest diminishes the
danger of the “unlimited” proliferation of
residential signs that concerns the City of Ladue.
We are confident that more temperate measures
could in large part satisfy Ladue’s stated
regulatory needs without harm to the First
Amendment rights of its citizens. As currently
framed, however, the ordinance abridges those
rights.
City of Ladue v. Gilleo, 512 U.S. 43, 58–59 (1994). No less should
be expected from the residents of Fayette County, whose selfinterest diminishes any danger from the “unlimited”
proliferation of litter (which has not yet resulted from years of
driveway delivery in Fayette County or other jurisdictions in any
event, see Pet. App. 43a-44a).

17
In light of the difficulties inherent in
undertaking to restrict the distribution
of newspapers to the public, the Court
believes the more prudent approach is
for the government to refrain from
paternalistically acting on behalf of the
community, and to put the decision for
rejecting and discarding the unwanted
newspaper or leaflet where it belongs, on
the recipient. The “short, though
regular, journey from mail box to trash
can ... is an acceptable burden, at least
so far as the constitution is concerned.”
Distribution Sys. of Am., 862 F. Supp. at 961.
As this Court recently reaffirmed, the First
Amendment demands a close fit between the means
adopted by the government and the intended result so
that essential free speech and press rights will not be
silenced:
The government may attempt to
suppress speech not only because it
disagrees with the message being
expressed,
but
also
for
mere
convenience. Where certain speech is
associated with particular problems,
silencing the speech is sometimes the
path of least resistance. But by
demanding a close fit between ends and
means, the tailoring requirement
prevents the government from too
readily
“sacrific[ing]
speech
for
efficiency.”

18
McCullen v. Coakley, 573 U.S. 464, 486 (2014)
(quoting Riley v. National Federation of Blind of N.
C., Inc., 487 U.S. 781, 795 (1988)). Applying that
principle, the Sixth Circuit elsewhere has recognized
that content-neutral regulation of traditional
mediums of expression must be narrowly tailored to
serve the government’s asserted interest. See, e.g.,
Parks v. Finan, 385 F.3d 694, 700, 704 (6th Cir. 2004)
(affirming order enjoining Ohio statute that required
a permit prior to public speaking on the state “Capitol
Square” because the permitting scheme “restricts
more expressive activity than is necessary to
accomplish” state’s asserted goals of “protecting the
physical condition of Capitol Square, ensuring the
safety of the public, and ensuring that permitted
speakers are able to engage effectively in expressive
activities”).
That decision is consistent with
McCullen’s commitment to apply a stringent
standard of review to content-neutral regulations of
traditional forms of expression that “have been more
closely associated with the transmission of ideas than
others.” McCullen, 573 U.S. at 488.
The Sixth Circuit’s decision in this case
effectively departs from that constitutional
imperative, inviting lower courts to allow contentneutral regulation of traditional forms of expression
without demanding evidence of narrow tailoring. See,
e.g., Act Now to Stop War and End Racism Coalition
and Muslim American Society Freedom Foundation v.
District of Columbia, 846 F.3d 391 (D.C. Cir. 2017)
(upholding a content-neutral regulation of speech
without requiring evidence that the regulation was
narrowly tailored and only cursorily considering the
potential burdens placed on speakers’ ability to
communicate their messages). This Court’s guidance

19
is essential to affirm the scope and application of the
“narrow tailoring” requirement—that is, the
stringent protection for traditional mediums of
expression reaffirmed in McCullen—as applied to
newspaper distribution.3
3.
By upholding the Ordinance, the Sixth
Circuit effectively allowed the County to foreclose an
entire medium of expression, the door-to-door
distribution of free community news in Lexington and
surrounding areas.
Properly evaluated against
settled First Amendment jurisprudence, the County’s
ban on residential delivery of a weekly community
newspaper cannot withstand scrutiny on the
independent ground that it leaves no adequate
substitutes for driveway delivery. In fact, none exist.
As Martin explained, there is no satisfactory
alternative to the distribution of literature to people
at their homes:

Legal scholars have highlighted the need for clarity on the
evaluation of content-neutral regulation of speech and the
protection afforded traditional mediums of expression. See, e.g.,
Robert Post, Recuperating First Amendment Doctrine, 47 Stan.
L. Rev. 1249, 1264 (1995) (observing that the time, place, and
manner doctrine seems to “hold[] that there is no difference
between restrictions of an acknowledged medium for the
communication of ideas and restrictions of a non-medium,” but
that decisions like Gilleo reveal the Court’s commitment to
protecting traditional mediums of expression even from contentneutral regulation); Leslie Kendrick, Nonsense on Sidewalks:
Content Discrimination in McCullen v. Coakley, 2014 Sup. Ct.
Rev. 215, 239 (2014) (observing that “the majority
in McCullen…applied the tailoring requirement with a
newfound stringency” and that it now “remains to be seen
whether McCullen’s new approach will take hold for all contentneutral laws”).
3

20
Pamphlets have proved most effective
instruments in the dissemination of
opinion. And perhaps the most effective
way of bringing them to the notice of
individuals is their distribution at the
homes of the people. . . . Door to door
distribution of circulars is essential to
the poorly financed causes of little
people.
Freedom to distribute information to
every citizen wherever he desires to
receive it is so clearly vital to the
preservation of a free society that,
putting aside reasonable police and
health regulations of time and manner of
distribution, it must be fully preserved.
The dangers of distribution can so easily
be controlled by traditional legal
methods, leaving to each householder
the full right to decide whether he will
receive strangers as visitors, that
stringent prohibition can serve no
purpose but that forbidden by the
Constitution, the naked restriction of
the dissemination of ideas.
Martin, 319 U.S. at 145-47 (internal quotation marks
and citations omitted). Since Martin, this Court has
stressed the priority granted for protecting freedom of
expression in the residential setting. “A special
respect for individual liberty in the home has long
been part of our culture and our law.” Gilleo, 512 U.S.
at 58 (citing cases). Indeed, in Gilleo, the Court
recognized “the City’s interest in minimizing the
visual clutter” associated with residential signs, id. at

21
54, but nevertheless concluded that a city ordinance
banning all residential signs (apart from those falling
within one of ten specific exemptions) infringed the
First Amendment rights of homeowners. Id. at 58
(finding the government’s “need to regulate
temperate speech from the home is surely much less
pressing”) (emphasis added; citation omitted). Gilleo
affirms the continuing validity of Martin—and, in
particular, the necessity of preserving adequate
alternative channels of communication, including
distribution, to (and by) citizens in their homes. See
Gilleo, 512 U.S. at 56 (“[W]e are not persuaded that
adequate substitutes exist for the important medium
of speech that Ladue has closed off.”).
Approving of the district court’s reasoning (Pet.
App. 2a), the Sixth Circuit found that the six methods
of delivery allowed by the Ordinance provided
sufficient “alternatives” to justify the County’s
restriction on driveway delivery (Pet. App. 15a-17a).
That reasoning is in tension with numerous decisions
of state and federal courts that have recognized the
imperative of preserving meaningful alternatives
that do not compromise the speaker’s ability to
disseminate its message. See, e.g., Ad World, 672
F.3d at 1142 (acknowledging “unrebutted evidence
that alternatives to courier delivery” of free weekly
community newspaper “are in terms both of time and
of money prohibitively expensive”); Miller, 880 P.2d
at 598 (noting that municipality “may place
reasonable restrictions on” distribution of free local
newspaper “so long as they do not have the effect of
squelching legitimate speech” and “so long as [the
municipality” can demonstrate that other substantial
means of communicating such speech are
meaningfully
available,
including
economic

22
feasibility”) (emphasis added, citing cases); Today
Newspapers, 443 A.2d at 790-91 (rejecting “the
possibility of mailing the newspaper” as an
alternative method for distribution of weekly
newspaper); Van Nuys Pub. Co., 489 P.2d at 824-25
(considering the “practical” effect of municipal antilittering ordinance and concluding that requirement
of “consent prior to the delivery of written material
will, as a practical matter, frequently operate to
curtail completely this means of communication”
because it “may well make canvassing prohibitively
time-consuming and expensive”). In today’s media
and news marketplace, there simply is no practical
substitute for driveway distribution, both in terms of
economics and with respect to residents’ accessibility.
On this issue too, the decisions below raise
serious
questions—and
create
significant
uncertainty—about the rigor with which “alternative
channels of communication” must be assessed,
particularly in light of McCullen’s commitment to
protect traditional forms of expression. This Court’s
guidance is needed.
II.

THIS CASE IS A PROPER VEHICLE
TO
CLARIFY
THE
PROTECTION
AFFORDED DRIVEWAY DISTRIBUTION
OF NEWS AND THE SCOPE OF
ALLOWABLE
TIME,
PLACE,
AND
MANNER REGULATION.

1.
The Ordinance flatly bans The HeraldLeader from making home deliveries of The
Community News anywhere other than the six
enumerated locations. None of those “alternative”
modes of delivery is possible from an automobile or
bicycle; instead, they all require the news distributor

23
to approach the reader’s residence on foot and deliver
the newspaper by hand – a mode of delivery that is,
in fact, more intrusive, see Reddy, 991 N.E.2d at 1161
(finding “depositing of a publication in residents’
yards” to be “a much less intrusive method of
delivery” than “an individual knocking on doors and
summoning an occupant to the door to receive” a
publication). The Ordinance significantly increases
the cost of delivery, making residential delivery of The
Commercial News unsustainably uneconomical and
rendering The Herald-Leader unable, as a practical
matter, to deliver its publication to willing readers.4
As a result, readers of The Commercial News who
desire home delivery no longer have that option.
As this Court recognized twenty-five years ago,
expressive conduct at home is an “entire medium of
expression” that merits distinct protection under the
First Amendment. Gilleo, 512 U.S. at 56 (finding that
a near-blanket prohibition on display of residential
signs apart from limited, specific exceptions violated
First Amendment because the ordinance did not leave
“adequate substitutes” for that “important medium of
speech” and noting that, “for persons of modest means
or limited mobility, a yard or window sign may have
no practical substitute”) (citing cases).
By
terminating home delivery of The Community News,
the Ordinance effectively forecloses an entire medium
of expression, a result that simply cannot be squared
with the First Amendment. Martin, 319 U.S. at 146The undisputed practical effect of the Ordinance, apparent on
its face, is to ban driveway delivery by an automobile or other
vehicle. As Mr. Friday, the publisher, testified in the district
court, the expense of such individual hand delivery would be
double the cost of driveway delivery, making home delivery of
The Community News impossible. Pet. App. 35a.

4

24
47 (“Freedom to distribute information to every
citizen wherever he desires to receive it is so clearly
vital to the preservation of a free society that … it
must be fully preserved.”).
2.
Unfettered distribution is essential to
free speech and free press rights because “the First
Amendment is concerned not only with a speaker’s
interest in speaking, but also with the public’s
interest in receiving information.”
Chappel v.
Montgomery Cty. Fire Prot. Dist. No. 1, 131 F.3d 564,
574 (6th Cir. 1997). The public has long received
important information via the time-honored
American tradition of driveway delivery of
newspapers.
Although the forms, sources, and
methods of distribution of local and national news
undoubtedly are changing, residential delivery of
print newspapers remains essential to a wellinformed citizenry—and entitled to full, robust
constitutional protection.
Despite the proliferation of digital sources of
news, newspapers continue to serve as the most
popular platform for news consumption for sixteen
percent of American adults.5 In 2017, the estimated
total daily newspaper circulation was 31 million for
weekday publications and 34 million for Sunday
publications.6 Home deliveries, in particular, provide

See “Social media outpaces print newspapers in the U.S. as a
news source,” Pew Research Center (Dec. 10, 2019),
https://www.pewresearch.org/fact-tank/2018/12/10/socialmedia-outpaces-print-newspapers-in-the-u-s-as-a-news-source/.
5

“Newspapers Fact Sheet,” Pew Research Center (June 13,
2018), https://www.journalism.org/fact-sheet/newspapers/.

6

25
newspapers to between 26 and 42 percent of
subscribers to weekday publications.7
Nationally, newspaper organizations deliver
an average of thirty-nine percent of their home
deliveries via the driveway, and organizations with
daily circulations of more than 200,000 deliver an
average of sixty-nine percent of their home deliveries
via the driveway.8 Those with daily circulations of
between 25,001 and 50,000—likely to be smaller,
community newspapers—deliver an average of
twenty-nine percent of their home deliveries via
driveway.9
Annually, forty-three percent of
newspaper organizations deliver publications other
than their normal, subscription-based materials,
often
delivering
unsolicited
materials
to
nonsubscribers who rely upon such materials as a key
source by which they consume their news.10 As these
statistics make plain, the driveway delivery of
newspapers continues to serve as an important
source by which millions of Americans consume their
news.
Traditional methods of newspaper driveway
delivery advance other important interests as well:
Driveway delivery of newspapers ensures the
economic advancement of the citizenry. The home
“NAA’s 2015 Circulation Facts, Figures & Logic,” Newspaper
Association of America (2015), http://www.newsmediaalliance.org/
wp-content/uploads/2015/07/NAA-Facts-Figures-Logic-2015_v3.pdf.
7

Id. Newspaper organizations with daily circulations of 200,000
or more average 41,300 home deliveries per day. Id.

8

Id. Newspaper organizations with daily circulations of between
25,001 and 50,000 average 2,500 home deliveries per day. Id.

9

10

Id.

26
delivery of newspapers creates employment
opportunities for distributors, newspaper employees,
and advertisers. An average of twenty-seven percent
of newspaper organizations, for instance, outsource
the home delivery of their newspapers to
distributors.11 Because home delivery is the method
by which millions of Americans consume their news,
driveway delivery provides an important source of
revenue for many newspaper organizations, ensuring
that journalists, editors, executives, and other
employees are and remain employed.
Because
advertising in smaller, community newspapers
generally is more affordable than advertising in
larger newspapers and magazines or on television
and radio, local businesspersons, tradespersons, and
professionals are able to advertise their products and
services to their local communities, ensuring for
themselves a steady source of revenue that may
otherwise not be available.12
Driveway delivery of newspapers provides
similar benefits to newspaper organizations
themselves, helping to ensure the preservation of the
newspaper industry in the face of rapid changes
brought about by (among other things) the
proliferation of digital news media. By means of home
deliveries, newspaper organizations with daily
circulations of 200,000 or more average a total
Those with daily
revenue of $67,387,126.00.13

11

Id.

12

Id.

13

Id.

27
circulations of between 25,001 and 50,000 average a
total revenue of $1,028,000.00 from home deliveries.14
If anything, home delivery of newspapers has
grown in importance as the news marketplace
evolves. Newspapers continue to suffer a steady
decline in circulation. The Pew Research Center
reports that between 2016 and 2017 circulation of
local daily newspapers declined by ten percent15, and
“America has lost a fifth of its newspapers since
2004.”16 As daily newspaper circulation numbers
have decreased due to competition from online news
sources, the driveway delivery of newspapers has
helped newspaper organizations, and especially
smaller, community newspapers, to remain
economically competitive—and thereby to continue to
serve as a source of local news and advertising. In
short, driveway delivery is an important source of
both direct and indirect revenue for newspaper
organizations.
3.
Because the driveway delivery of
newspapers is a time-honored American tradition,
one which ensures the development of a wellinformed citizenry and contributes to the economic
advancement of the community, any municipal
regulation that restricts that method of delivery must
14 Id. Again, newspaper organizations deliver an average of
thirty-nine percent of their home deliveries via the driveway. Id.

“Newspapers Fact Sheet,” Pew Research Center (June 13,
2018), https://www.journalism.org/fact-sheet/newspapers/.
15

16 “Small-Town American Newspapers are surprisingly resilient,”
The Economist (June 23, 2018), https://www.economist.com/
united-states/2018/06/23/small-town-american-newspapers-aresurprisingly-resilient.

28
withstand rigorous First Amendment scrutiny. This
case presents the question of the scope of allowable
“time, place, and manner” regulation in a particularly
stark context, given that the Ordinance as a practical
matter bans dissemination of The Community News
altogether—and thereby deprives its readers of
welcome access to an important source of news and
information, speech that undoubtedly lies at the heart
of the First Amendment. This Court’s review and
guidance is essential.
CONCLUSION
For the foregoing reasons, the petition for a
writ of certiorari should be granted.
Respectfully submitted,
JOHN A. BUSSIAN
Counsel of Record
THE BUSSIAN LAW FIRM, PLLC
Wells Fargo Capitol Center
150 Fayetteville Street, Suite 1700
Raleigh, North Carolina 27601
(919) 829-4900
jbussian@aol.com
JEFFERY T. NOBLES
HUSCH BLACKWELL LLP
600 Travis Street, Suite 2350
Houston, Texas 77002
(713) 525-6239
jeff.nobles@huschblackwell.com
July 16, 2019

APPENDIX

ia
APPENDIX TABLE OF CONTENTS
Page
Order of
The United States Court of Appeals
For the Sixth Circuit
entered April 17, 2019 ................................... 1a
Judgment of
The United States Court of Appeals
For the Sixth Circuit
entered April 17, 2019 ................................... 3a
Opinion and Order of
The United States District Court
For the Eastern District of Kentucky
entered July 19, 2018..................................... 4a
Judgment of
The United States District Court
For the Eastern District of Kentucky
entered July 19, 2018................................... 24a
Ordinance No. 25-2017 ........................................... 26a
Excerpts of Transcript of Motion/
Evidentiary Hearing before
The Honorable Karen K. Caldwell
on April 19, 2017 .......................................... 33a
Excerpts of Defendant’s Response to
Plaintiff’s First Requests for Admission,
Interrogatories and Requests for
Production of Documents
undated......................................................... 43a

iia
Excerpts of Transcript of
Deposition of Ronnie Bastin
on April 26, 2018 .......................................... 45a
Excerpts of Transcript of
Deposition of William Farmer
on April 27, 2018 .......................................... 49a

1a
[ENTERED: April 17, 2019]
920 F.3d 1126
United States Court of Appeals, Sixth Circuit.
LEXINGTON H-L SERVICES, INC.,
Plaintiff-Appellant,
v.
LEXINGTON-FAYETTE URBAN
COUNTY GOVERNMENT,
Defendant-Appellee.
No. 18-5851
|
Decided and Filed: April 17, 2019
Appeal from the United States District Court for the
Eastern District of Kentucky at Lexington. No. 5:17cv-00154—Karen K. Caldwell, Chief District Judge.
Attorneys and Law Firms
ON BRIEF: Jeff Nobles, SMITH NOBLES, Houston,
Texas, for Appellant. Keith Moorman, FROST
BROWN TODD LLC, Lexington, Kentucky, for
Appellee.
Before: CLAY, GIBBONS, and COOK, Circuit Judges.
ORDER
This matter was previously before the Court. See
Lexington H-L Servs., Inc. v. Lexington-Fayette Urban
Cty. Gov’t, 879 F.3d 224 (6th Cir. 2018), reh’g denied
(Jan. 30, 2018). In our previous opinion and order,
dated January 9, 2018, we reversed the district court’s
order granting a preliminary injunction that had
enjoined Defendant Lexington-Fayette Urban County
Government (the “City”) from enforcing Ordinance

2a
25-2017, which restricts the delivery of “unsolicited
written materials” to six enumerated locations and
provides for civil penalties for violations. We vacated
the injunction and remanded the case to the district
court for further proceedings consistent with our
opinion. Id. at 236.
Upon remand, further proceedings were taken in the
district court, in connection with which both parties
expressed their view that a trial proceeding was not
necessary or warranted. The district court thereafter
entertained cross motions for summary judgment. On
July 19, 2018, the district court filed a well-reasoned
opinion and order finding that Ordinance 25-2017
constitutes a valid time, place, and manner regulation
of speech. (See ECF No. 62.) Accordingly, the district
court granted the City’s motion for summary
judgment, denied the motion for summary judgment
filed by Plaintiff, and entered judgment for the City.
(See id.) The district court’s July 19, 2018 opinion and
order closely follows the legal analysis and reasoning
set out in this Court’s opinion of January 9, 2018.
Plaintiff has timely appealed.
Plaintiff’s appeal has been referred to a panel of the
Court that, upon examination, unanimously agrees
that oral argument is not needed. See Fed. R. App. P.
34(a). We have reviewed the record below, including
the district court’s July 19, 2018 opinion and order, and
conclude that the district court properly addressed,
analyzed, and disposed of the issues. We therefore
AFFIRM the July 19, 2018 order of the district court.
IT IS SO ORDERED.
All Citations
920 F.3d 1126 (Mem)

3a
[ENTERED: April 17, 2019]
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-5851
FILED
Apr 17, 2019
DEBORAH S. HUNT, Clerk
LEXINGTON H-L SERVICES, INC.,
Plaintiff - Appellant,
v.
LEXINGTON-FAYETTE URBAN COUNTY
GOVERNMENT,
Defendant - Appellee.
Before: CLAY, GIBBONS, and COOK,
Circuit Judges.
JUDGMENT
On Appeal from the United States District Court
for the Eastern District of Kentucky at Lexington.
THIS CAUSE was heard on the record from the
district court and was submitted on the briefs without
oral argument.
IN CONSIDERATION THEREOF, it is
ORDERED that the district court’s order, dated July
19, 2018, is AFFIRMED.
ENTERED BY ORDER OF THE COURT
/s/
Deborah S. Hunt, Clerk

4a
[ENTERED: July 19, 2018]
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
CENTRAL DIVISION
AT LEXINGTON
LEXINGTON H-L
SERVICES, INC., d/b/a/
LEXINGTON
HERALD-LEADER
Plaintiff,
v.
LEXINGTON-FAYETTE
URBAN COUNTY
GOVERNMENT,
Defendant.

|
|
CIVIL NO.
| 5:17-CV-154-KKC
|
|
|
|
|
OPINION
|
AND
|
ORDER
|
|
|
|
|
|

*** *** ***
This matter is before the Court on crossmotions for summary judgment filed by Defendant
Lexington-Fayette Urban County Government1 (DE
55) and Plaintiff Lexington H-L Services, Inc. d/b/a
Lexington Herald-Leader (DE 56). The HeraldLeader seeks to permanently enjoin Lexington from
enforcing a recently enacted Ordinance which
restricts
permissible methods of
delivering
unsolicited written materials within the City. For the
The Court will refer to the Defendant simply as “Lexington” or
“the City.”

1

5a
reasons set forth below, the Court finds that the
Ordinance is a valid time, place, manner regulation of
speech and grants summary judgment in favor of
Defendant.
I.

Background

Since October 2014, the Herald-Leader has
distributed a free, weekly, non-subscription
publication, The Community News, to approximately
130,000 households in Fayette and Jessamine
counties. The Community News, which is typically
four to six pages in length, contains both local news
and advertisements. The Herald-Leader contracts
with a distribution partner who distributes The
Community News by various means, but primarily via
driveway delivery.
Recognizing that some recipients may not want
to receive its unsolicited publication, the HeraldLeader maintains a “Do Not Deliver” database. There
are a number of ways that residents may be added to
the database. The front page of each issue contains a
phone number and email for residents to contact and
opt-out of delivery. As of April 2017, the database
contained 2,899 residents who had opted-out of
delivery. Households are also removed if they are
listed as “For Sale.” And Herald-Leader’s distribution
partner is instructed not to deliver a new issue of The
Community News if there is already one in the
driveway from a previous delivery.
Lexington Councilmembers began receiving
written complaints from residents in 2015 regarding
delivery of unsolicited materials from the HeraldLeader and other organizations and urging the City
to take action to stop these deliveries. Residents

6a
described the materials as litter and reported that
their attempts to opt-out of delivery were
unsuccessful. (DE 55-2.) Residents also complained
that materials were left to accumulate at unoccupied
homes, were blown around into the street, and
remained on the ground for months unless picked up
by residents, creating aesthetic and public safety
concerns. (DE 55-2, 55-3, 55-4, 55-5.) These problems
were attributed to the practice of tossing these
materials on sidewalks, driveways, and yards from
moving vehicles. (DE 55-4, 55-5, 55-6.)
As a result of these complaints, the Lexington
Planning and Public Safety Committee held a public
hearing on August 11, 2015. At the hearing, the
Herald-Leader assured the City that it was
addressing these complaints and that it had a system
in place to ensure copies of The Community News did
not accumulate in front of residences and that
residents could easily opt-out of delivery. The problem
was not solved, however, and the City continued
receiving complaints. (DE 55-8, 55-9, 55-10.) One
Councilmember who had opted out of delivery even
received a copy and complained directly to Rufus
Friday, publisher of the Herald-Leader. This
prompted him to send an email to the distributor of
The Community News describing the problem as
“unacceptable” and worsened by the fact that it was
“thrown in the street at the edge of her driveway.”
(DE 55-7.)
Three more public hearings were held on the
issue on October 11, 2016, January 17, 2017, and
March 2, 2017, when the Council ultimately approved
the Ordinance at issue. Prior to passing the
Ordinance,
the
Committee
also
considered

7a
memorandums submitted by Charles Martin,
Director of the Division of Water Quality, and Mark
Barnard, the Chief of Police. Director Martin
expressed concerns that unsolicited materials tossed
on driveways could wash into the public storm sewer
system and pollute creeks and streams.2 He also
noted that Lexington was required by an
Environmental Protection Agency Consent Decree to
educate the public about ways to minimize pollution
to the City’s waterways. (DE 55-11.) Chief Barnard’s
memorandum noted that unsolicited materials can
leave a neighborhood appearing neglected and there
accumulation outside households can indicate that a
residence is not surveilled or abandoned, leading to
an increased risk of burglary. (DE 55-13.)
The Ordinance passed by Lexington restricts
the delivery of “[u]nsolicited written materials”3 to six
enumerated locations: (1) “[o]n a porch . . . nearest the
front door;” (2) “securely attached to the front door;”
(3) “[t]hrough a mail slot;” (4) “[b]etween the exterior
front door, if one exists and is unlocked, and the
interior front door;” (5) “in a distribution box;” or (6)
“[p]ersonally with the owner, occupant, and/or lessee
of the premises.” Ordinance No. 25-2017 § 14106(b)(1)–(6). The stated purposes of the Ordinance

Martin supplemented his memorandum with a declaration in
this action that the Ordinance would promote compliance with
the Consent Decree. Consent Decree, United States v. LexingtonFayette Urban Cty. Gov’t, No. 5:06-cv-386 (E.D. Ky. Jan. 3, 2011).

2

The Ordinance defined unsolicited written materials as “[a]ny
written materials delivered to any premises without the express
invitation nor permission, in writing or otherwise, by the owner,
occupant, or lessee of such premises. Lexington, Ky., Ordinance
No. 25-2017, § 14-106(a)(6) (Mar. 2, 2017).

3

8a
were reducing “unwanted litter and visual blight
caused by unsolicited written materials” and
preventing damage to and interference with private
property. Id. The Ordinance imposes a civil penalty of
up to $200 per violation. Id. § 14-106(h).
After the Ordinance was passed, the HeraldLeader commenced this action seeking to enjoin its
enforcement on the basis that it abridges the HeraldLeader’s First Amendment rights by prohibiting its
preferred distribution method—driveway delivery—
of The Community News. The Court previously issued
a preliminary injunction against enforcement of the
Ordinance which was reversed by the Court of
Appeals for the Sixth Circuit. See Lexington H–L
Servs., Inc. v. Lexington–Fayette Urban Cty. Gov’t,
259 F. Supp. 3d 659 (E.D. Ky. 2017), rev’d, 879 F.3d
224 (6th Cir. 2018). This matter was set for a bench
trial but, during the pretrial conference, the parties
agreed that there were no genuine issues of material
fact and therefore summary judgment was the
appropriate means for resolving this matter. (DE 61.)
Accordingly, this matter is now ripe for consideration.
II.

Standard of Review

A moving party is entitled to summary
judgment pursuant to Federal Rule of Civil Procedure
56 “if the movant shows that there is no genuine
dispute as to any material fact and the movant is
entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). In order to defeat a summary judgment
motion, “[t]he nonmoving party must provide more
than a scintilla of evidence,” or, in other words,
“sufficient evidence to permit a reasonable jury to find
in that party’s favor.” Van Gorder v. Grand Trunk W.

9a
R.R., Inc., 509 F.3d 265, 268 (6th Cir. 2007) (citing
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 252
(1986)). Summary judgment must be entered if, “after
adequate opportunity for discovery,” a party “fails to
make a showing sufficient to establish the existence
of an element essential to that party's case, and on
which that party will bear the burden of proof at
trial.” Tolton v. American Biodyne, Inc., 48 F.3d 937,
940 (6th Cir. 1995) (quoting Celotex Corp. v. Catrett,
477 U.S. 317, 322 (1986) (internal quotation marks
omitted)).
III.

Analysis

The parties present two distinct frameworks
for how the Court should decide this case. Lexington
contends that the Ordinance is a valid time, place,
and manner regulation of speech. Both this Court’s
previous Opinion and Order and the opinion of the
Sixth Circuit, focused on this issue when resolving the
Herald-Leader’s motion for preliminary injunction. In
contrast, the Herald-Leader relies on the Supreme
Court’s decision in Martin v. City of Struthers, 319
U.S. 141 (1943) to claim that the First Amendment
provides special porteciton to driveway delivery of
news and other literature, even if unsolicited. These
arguments are considered in turn.
A.

The Ordinance is a valid time, place,
manner regulation of speech

In order for the Ordinance to qualify as a
reasonable time, place, and manner regulation of
speech, “the law must (1) be content-neutral, (2) serve
a significant government interest, (3) be narrowly
tailored to serve that government interest and (4)
leave open ample alternative channels of

10a
communication.” Jobe v. City of Catlettsburg, 409 F.3d
261, 267 (6th Cir. 2005) (citing Members of City
Council of Los Angeles v. Taxpayers for Vincent, 466
U.S. 789, 808, 815 (1984)).
Lexington’s Ordinance is content- and
viewpoint-neutral
and
advances
significant
government interests. A regulation of speech may be
considered content-based “on its face” if it “draws
distinctions based on the message a speaker conveys.”
Reed v. Town of Gilbert, 135 S. Ct. 2218, 2227 (2015)
(quoting Sorrell v. IMS Health, Inc., 564 U.S. 552, 566
(2011)). The City’s Ordinance is facially contentneutral because it applies equally to the delivery of all
unsolicited materials, without reference to the
message or viewpoint they contain. Regulations that
are otherwise facially neutral are also considered
content-based if they “cannot be ‘justified without
reference to the content of the regulated speech,’” or if
they were “adopted by the government ‘because of
disagreement with the message the speech conveys.’”
Id. (quoting Ward v. Rock Against Racism, 491 U.S.
781, 791 (1989)). The explanations given by the City
for passing the ordinance made no reference to the
content of The Community News. The City’s goals
were to address litter, visual blight, and public safety
concerns created by the distribution of unsolicited
written materials. These objectives “have nothing to
do with the content of the literature being distributed
by the speaker.” Jobe, 409 F.3d at 268; see also Hucul
Advert., LLC v. Charter Twp. Of Gaines, 748 F.3d 273,
277 (6th Cir. 2014) (holding a local sign ordinance
which “aim[ed] to promote traffic safety and
aesthetics and preserve property values” was content-

11a
neutral).4 The City’s interest in reducing blight and
litter and protecting private property are significant.
See Jobe, 409 F.3d at 268 (“[T]he ordinance advances
two significant government interests: (1) It furthers
the government’s interest in prohibiting litter and
visual blight; and (2) it furthers individuals’ interests
in having their private property left alone by those
who do not have permission to use it.”).
Having determined that the Ordinance is
content-neutral and advances significant government
interests, the Court turns to the remaining two
prongs of the intermediate scrutiny analysis: whether
the Ordinance is narrowly tailored and leaves open
ample alternative channels of communication.
1.

Narrow Tailoring

A regulation of speech is narrowly tailored “so
long as the regulation promotes a substantial
government interest that would be achieved less
effectively absent the regulation.” Ward, 491 U.S. at
799. A regulation cannot be invalidated “simply
because a court concludes that the government’s
interest could be served by some less-speechrestrictive alternative.” Id. at 800. Thus, the fit
between the City’s means and ends must be a
reasonable one. See Prime Media, Inc. v. City of
Brentwood, 398 F.3d 814, 821 (6th Cir. 2005).
Additionally, the City must rely on more than mere
The Herald-Leader concedes that the Ordinance is facially
neutral, but does not concede that the Ordinance was not
motivated by a desire to target the Herald-Leader. But the
Herald-Leader states that the City’s motives are irrelevant for
summary judgment purposes and it does further develop an
argument that the Ordinance was motivated by the content of
The Community News.

4

12a
“speculation or conjecture” that the Ordinance will
further its interests. Id.
The Court finds that the Ordinance is narrowly
tailored to the City’s interest in reducing visual blight
and reducing litter.5 As in Jobe, where the Sixth
Circuit upheld a city ordinance prohibiting placing
posters on vehicles, Lexington’s Ordinance “target[s]
the precise problems . . . that it wished to correct.” 409
F.3d at 270. It is reasonable for the City to believe,
based on the millions of unsolicited materials
delivered each year and numerous complaints from
residents that driveway delivery resulted in these
materials accumulating, that restricting that form of
delivery would reduce this visual blight. The
Lexington Ordinance corrects these problems by
restricting delivery to six locations were residents are
more likely to collect unsolicited materials. Similarly,
limiting the delivery to six locations is also likely to
create a more consistent esthetic in the City by
preventing haphazard distribution of unsolicited
materials.
As to the City’s interest in preventing litter,
Lexington received complaints that driveway delivery
made it more likely that written materials were blown
into the street, were they become litter. The Council
also considered the memorandum submitted by the
The City has also advanced the interest of reducing damage to
and interference with private property. In its opinion reversing
this Court’s preliminary injunction, the Sixth Circuit found that
the City had not shown a sufficient basis to invoke this interest.
879 F.3d at 231. Because the Court finds, consistent with the
Sixth Circuit’s prior opinion, that the Ordinance is narrowly
tailored to reducing blight and litter it will not address whether
it is narrowly tailored to the City’s interest in protecting private
property.

5

13a
City’s Director of Division of Water Quality which
advised that uncollected materials could wash into
the public storm sewer system during heavy rains and
end up in the banks of creeks and streams or in
streamside vegetation.
The Herald-Leader claims that there is no
evidence that delivery of The Community News
causes litter, citing the deposition testimony of
Councilmember Farmer. Councilmember Farmer,
who voted against the Ordinance, also testified that
he believed that the Herald- Leader’s opt-out option
was an effective means for reducing litter. The belief
of one Councilmember, however, does not outweigh
the other evidence considered by the City and the
opinion of the majority of the Council. The HeraldLeader also points to the City’s admission that it has
no knowledge of specific storm drains blocked by The
Community News and Director Martin’s testimony
that the EPA has never identified newspapers in
storm drains as a problem under Lexington’s Consent
Decree. These arguments, however, misstate the
quantum of evidence required for the Ordinance to be
upheld. Upholding “common sense explanations for
ordinances” like Lexington’s “does not require proof
that the problem has occurred in the past or an
‘elaborate study of their present-day necessity.’”
Pagan v. Fruchey, 492 F.3d 766, 777 n.9 (6th Cir.
2007) (citing Jobe, 409 F.3d 261). The complaints by
residents provides a sufficient basis to conclude that
driveway delivery of unsolicited written materials
results in litter and visual blight and that the
Ordinance will further the City’s interests in reducing
these issues.

14a
The Herald-Leader next argues that the City’s
Ordinance conflicts with recent Supreme Court case
law requiring a “close fit” between the means used by
the government and its intended result. See McCullen
v. Coakley, 134 S. Ct. 2518, 2534–35 (2014) (“[B]y
demanding a close fit between ends and means, the
tailoring requirement prevents the government from
too readily ‘sacrificing speech for efficiency.’”)
(quoting Riley v. Nat’l Fed’n of Blind of N. C., Inc., 487
U.S. 781, 795 (1988)). McCullen, however, did not
change the law of narrow tailoring; the Court merely
applied the long standing narrow tailoring test
enunciated in Ward. Id. (quoting Ward, 491 U.S. at
798–799); see Lexington H–L Servs., 879 F.3d at 232
(“Lest any confusion on the point remain, we reaffirm
today that a regulation of time, place, or manner
of protected speech must be narrowly tailored to
serve the government’s legitimate, content-neutral
interests but that it need not be the least restrictive
or least intrusive means of doing so.”); Traditionalist
Am. Knights of the Ku Klux Klan v. City of Desloge,
775 F.3d 969, 978 (8th Cir. 2014) (internal citations
omitted) (“It is far from clear that the Court was
intending in the McCullen abortion case to change
the law on narrow tailoring. While quoting its
longstanding precedent in Ward to define narrow
tailoring at no point did the Supreme Court
announce a new rule.”). McCullen involved a state
statute which criminalized standing within a thirtyfive foot buffer zones outside abortion clinics.
McCullen, 134 S. Ct. at 2525. The Court found that
the statute was overbroad because it “operate[d]
to deprive petitioners of their two primary methods
of communicating with patients”—one-on-one
communications and leafletting. Id. at 2536.

15a
Abridging those forms of communication “impose[d]
an especially significant First Amendment burden”
because they had “historically been more closely
associated with the transmission of ideas than
others.” Id. Only after making this determination did
the Court go on to find that the state had “available
to it a variety of approaches that appear capable of
serving its interests, without excluding individuals
from areas historically open for speech and debate,”
id. at 2539. The Ordinance here is unlike the statute
at issue in McCullen; it leaves open six delivery
methods likely to ensure that message of The
Community News is received by Lexington residents.
There is no evidence on the record suggesting that
these remaining methods of delivery would deprive
the Herald-Leader of their ability to communicate
and therefore the Ordinance does not burden more
speech than necessary in achieving its asserted aims.
2.

Alternative Channels of Communication

Finally, the Court must consider whether
Lexington’s Ordinance leaves open ample alternative
channels of communication. The Sixth Circuit has
explained that “[a]n alternative channel of
communication can be adequate even when the
speaker is denied its best or favored means of
communication.” Contributor v. City of Brentwood,
726 F.3d 861, 865 (6th Cir. 2013) (citing Phelps–Roper
v. Strickland, 539 F.3d 356, 372 (6th Cir. 2008). Thus,
“[t]he key for purposes of the adequate-alternatives
analysis is whether the proffered alternatives allow
the speaker to reach its intended audience.” Id. (citing
Phelps–Roper, 539 F.3d at 372; Prime Media, Inc. v.
City of Franklin, 181 F. App’x 536, 541 (6th Cir.
2006)).

16a
The Ordinance leaves open ample alternative
channels of communication. The Herald- Leader may
still distribute, by any method, written materials that
individuals have consented to receiving. Unsolicited
and unconsented to written materials may still be
delivered so long as they are: (1) left on the front
porch; (2) securely attached to the front door; (3)
inserted in a mail slot; (4) placed between an exterior
and interior front door; (5) placed in a distribution
box; or (6) delivered personally to the owner,
occupant, or lessee. While these may not be the
Herald-Leader’s preferred methods of distribution,
they allow The Community News to reach its intended
audience.
The Ordinance is similar to those upheld by the
Supreme Court in Frisby v. Schultz, 487 U.S. 474
(1988) and the Sixth Circuit in Jobe. In Frisby, the
Court found that an ordinance prohibiting picketing
that took place “solely in front of a particular
residence” left open ample alternative channels for
communication because it permitted protestors to
march through neighborhoods, go door-to-door to
proselytize, distribute literature, and contact
residents by telephone. Id. at 484. In Jobe, the court
of appeals upheld an ordinance prohibiting
individuals from placing leaflets on cars without the
owner’s consent because it still “permit[ed] a wide
range of leafletting activities.” 409 F.3d at 270.
Citizens could still distribute literature by waiting in
parking lots or on a street and asking the owners if
they would like a leaflet, by going door-to-door to talk
to hand out leaflets, and by mailing them to residents.
Id. Even more significant to this case, the ordinance
in Jobe “expressly allow[ed] citizens to leave leaflets
and pamphlets at private residences if they are placed

17a
on a porch or securely fastened to prevent them from
being blown or scattered about.” Id. (internal citations
and quotation marks omitted). Lexington’s Ordinance
leaves those same channels open. Like the ordinances
at issue in Frisby and Jobe, the City’s Ordinance
permits its residents, and the Herald-Leader, to
distribute literature in numerous ways which ensure
it will reach its intended audience.6
B.

Martin did not create special
First Amendment protection for
driveway delivery of newspapers

The Herald-Leader primary argument in
support of summary judgment is that the Supreme
Court in Martin v. City of Struthers created a special
protection for driveway delivery of newspapers. 319
U.S. 141. Martin involved an Ohio municipal
ordinance which completely prohibited door-to-door
solicitation and distribution of literature.7 Martin, a
During the preliminary injunction stage, the Herald-Leader
argued that the Ordinance does not preserve ample alternative
channels because compliance with the Ordinance would increase
the cost of delivery such that it can no longer be distributed. The
Herald-Leader does not advance this argument in its Judgment
or Response and therefore appears to have abandoned this
theory.

6

7

The Ordinance at issue in Martin stated:
It is unlawful for any person distributing
handbills, circulars or other advertisements to
ring the door bell, sound the door knocker, or
otherwise summon the inmate or inmates of any
residence to the door for the purpose of receiving
such handbills, circulars or other advertisements
they or any person with them may be
distributing.

319 U.S. at 142.

18a
Jehovah’s Witness, was convicted under the
ordinance when she went door-to-door to distribute
flyers advertising a religious meeting. Id. at 142. The
Court applied a balancing test, weighing the interests
of Martin in her First Amendment rights of freedom
of speech and religion, the interests of each
“individual householder to determine whether he is
willing to receive her message,” and the “interests of
the community” which through the ordinance sought
to “protect the interests of all of its citizens, whether
particular citizens want that protection or not.” Id. at
143. The Court concluded that the ordinance did not
safeguard “the constitutional rights of those desiring
to distribute literature and those desiring to receive
it” and held the ordinance to be an unconstitutional
restriction on freedom of speech and press Id. at 149.
In coming to this conclusion, the Court stated
that “leaving to each householder the full right to
decide whether he will receive strangers as visitors”
was the preferred means for regulating door-to-door
solicitation. Relying on this passage, the HeraldLeader argues that Martin requires Lexington to
permit driveway delivery of unsolicited newspapers
unless residents opt-out. Under this theory, because
the Herald-Leader provides an opt-out mechanism for
recipients, the Ordinance is unconstitutional.
Martin is distinguishable. The ordinance in
Martin restricted door-to-door solicitation and
distribution of pamphlets, a much broader restriction
than Lexington’s Ordinance which still explicitly
permits these methods of distribution. While Martin
did not apply modern intermediate scrutiny analysis,
the opinion can be understood as finding that the
ordinance was not narrowly tailored because it

19a
“burden[e]d substantially more speech than is
necessary to further the government’s legitimate
interests.” Ward, 491 U.S. at 799. The ordinance in
Martin was aimed at “protection of the households
from annoyance, including intrusion upon the hours
of rest, and . . . prevention of crime.” Martin, 319 at
144. Those interests, the Court found, could be served
by traditional general trespass statutes which
“punish[ ] persons who enter onto the property of
another after having been warned by the owner to
keep off.” Id. at 147. Requiring that Lexington adopt
the opt-out method is unlikely to curb the problem of
litter and visual blight that its Ordinance is aimed at
since it is the failure by residents to pick up unwanted
literature, on which the opt-out instructions are
printed, that results in the litter and blight. And the
Lexington Ordinance burdens significantly less
speech in furthering these interests by permitting six
forms of unsolicited distribution of literature to
homes.
Additionally, Martin involved a “widespread”
method of communication—door-to-door distribution
of literature—that had “proved the most effect
instrument[ ] in the dissemination of opinion.” Id. at
145 (quoting Schneider v. New Jersey, 308 U.S. 147,
164 (1939)). As the Court more recently recognized in
McCullen, “[o]ne-on-one communication is the most
effective, fundamental, and perhaps economical
avenue of political discourse. And handing out leaflets
in the advocacy of a politically controversial viewpoint
is the essence of First Amendment expression; no
form of speech is entitled to greater constitutional
protection.” 134 S. Ct. at 2536 (internal quotations
marks and citations omitted) (quoting Meyer v. Grant,

20a
486 U.S. 414, 424 (1988); McIntyre v. Ohio Elections
Comm’n, 514 U.S. 334, 347 (1995)). Therefore, [w]hen
the government makes it more difficult to engage in
these modes of communication, it imposes an
especially significant First Amendment burden.” Id.
In contrast, driveway delivery of unsolicited
materials has never been recognized as traditional,
fundamental, or widespread form of expression such
that its restriction would create special First
Amendment concerns. Instead, the Sixth Circuit has
stated the opposite: “There is nothing special
about . . . a lawn-that invites others to place leaflets
or advertisements on it without the owner's consent.”
Jobe, 409 F.3d at 270.
The Herald-Leader also argues that state and
federal courts, relying on Martin, have applied
Martin’s balancing test to strike down governmental
attempts to limit residential delivery of free
newspapers. These cases, which the Herald-Leader
dubs “Martin’s progeny” are distinguishable and nonbinding in this Court and therefore do not justify
foregoing the time, place, manner analysis applied by
the Sixth Circuit in Jobe.
The first case cited by the Herald-Leader, Van
Nuys Pub. Co. v. City of Thousand Oaks, 489 P.2d 809
(Cal. 1971), involved a far broader prohibition on
distribution of unsolicited written materials. As the
court explained, “the ordinance does not limit its
criminal sanction to those who strew papers on lawns
or sidewalks, but by its terms covers those who merely
enter on property to distribute pamphlets to others
who may be there, as well as those who, in delivering
pamphlets, take care to secure their messages so as to

21a
eliminate the hazards of litter.”8 Id. at 811–12. Thus,
the ordinance passed by City of Thousand Oaks was
broader than both the Ordinance passed by Lexington
and the ordinance struck down in Martin as it
required “that a distributor obtain consent prior to
the delivery of written material” which, the court
determined, “as a practical matter [will] frequently
operate to curtail completely this means of
communication.” Id.at 813. In contrast, Lexington’s
Ordinance permits the distribution of unsolicited
written materials to six specified locations and
therefore Van Nuys is inapposite.
The Herald-Leader also relies on the Third
Circuit’s decision in Ad World, Inc. v. Doylestown Tp.,
672 F.2d 1136 (3d Cir. 1982) in which the court struck
down an ordinance which prohibited distribution of
“advertising material” without “affirmative request or
consent of the person occupying the residence.” Id. at
1138. Applying intermediate scrutiny, the court
found that the ordinance was neither narrowly
tailored nor left open ample alternative channels of
communication. Id. at 1142. The ordinance was aimed
at reducing burglary due to accumulation of
8

The ordinance stated:
No person may throw, cast, distribute, scatter,
deposit, pass out, give away, circulate or deliver
any handbill, dodger, circular, newspapers,
paper, booklet, poster, other printed matter or
advertising literature of any kind in the yard or
grounds of any house, building structure, on any
porch, doorstep vestibule, in any public hallway,
or upon any vacant lot or other private property
without having first obtained permission of the
owner or of an adult resident or occupant thereof.

Id. at 810–11.

22a
unwanted papers, but the regulation applied only to
advertising materials while other “publications
[which] could lead to similar accumulation and the
same attendant risks” were exempted.” Id. at 1141. In
contrast, recognizing that unsolicited materials are
most likely to go uncollected, the Lexington ordinance
applies equally to all unsolicited written material
regardless of its content. Additionally, the
Doylestown ordinance was also broader in scope,
prohibiting
all
distribution
of
unsolicited
advertisements. Ad World sought to deliver its
advertisement by “attach[ing] the paper in a plastic
bag to a mailbox hook or to a door knob or leave it on
the premises.” Id. at 1138. Thus, when the Third
Circuit cited to Martin, it was for the conclusion that
“a publisher . . . is a fortiori protected in having a
paper delivered door to door and having it left on the
front steps or on the mailbox of a home.” Id. (emphasis
added). Lexington’s Ordinance does not prohibit this
type of delivery and therefore Ad World is
inapplicable.
The Herald-Leader cites a number of
additional state cases and a single decision from the
Eastern District of New York but fails to explain why
the Court should rely on these cases rather than the
Sixth Circuit’s binding precedent in Jobe. The HeraldLeader has strained to present Martin as creating a
right to provide unsolicited driveway delivery when
neither it, nor its most pertinent progeny, specifically
addressed that issue. Properly understood, Martin
stands for the proposition that a government may not
place a total prohibition on door-to-door solicitation
and leafletting. Outside of that context, and in this
circuit, Jobe provides the applicable time, place,
manner analysis for assessing whether content-

23a
neutral restrictions on distribution of written
materials are constitutional. Under that analysis, as
set forth above, Lexington’s Ordinance is valid.
IV.

Conclusion

For the reasons set forth above, the Court
HEREBY ORDERS:
(1) Defendant’s Motion for Summary Judgment
(DE 55) is GRANTED;
(2) Plaintiff’s Motion for Summary Judgment
(DE 56) is DENIED;
(3) a judgment consistent with this Opinion and
Order will be entered contemporaneously.
Dated July 19, 2018.
/s/
KAREN K. CALDWELL, CHIEF JUDGE
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY

24a
[ENTERED: July 19, 2018]
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
CENTRAL DIVISION
AT LEXINGTON
LEXINGTON H-L
SERVICES, INC., d/b/a/
LEXINGTON
HERALD-LEADER
Plaintiff,
v.
LEXINGTON-FAYETTE
URBAN COUNTY
GOVERNMENT,
Defendant.

|
|
CIVIL NO.
| 5:17-CV-154-KKC
|
|
|
|
| JUDGMENT
|
|
|
|
|
|
|
|

*** *** ***
In accordance with the order entered on this
date, the Court hereby ORDERS and ADJUDGES
as follows:
1. judgment is entered in favor of Defendant;
2. this matter is DISMISSED and STRICKEN
from the Court’s active docket; and
3. this judgment is FINAL and APPEALABLE.
Dated July 19, 2018.

25a
/s/
KAREN K. CALDWELL, CHIEF JUDGE
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY

26a
ORDINANCE NO. 25-2017
AN ORDINANCE CREATING SECTION 14-106 OF
THE CODE OF ORDINANCES OF THE
LEXINGTON-FAYETTE
URBAN
COUNTY
GOVERNMENT,
REQUIRING
THAT
THE
DELIVERY
OF
UNSOLICITED
WRITTEN
MATERIALS TO A PREMISES BE PLACED ON
THE FRONT PORCH, THROUGH A MAIL SLOT,
SECURELY ATTACHED TO THE FRONT DOOR,
BETWEEN THE EXTERIOR AND INTERIOR
FRONT DOOR, IN A DISTRIBUTION BOX, OR
PERSONALLY WITH THE OWNER; CLASSIFYING
A VIOLATION OF THIS ORDINANCE AS A CIVIL
OFFENSE; ESTABLISHING ADMINISTRATIVE
REVIEW
PROCEDURES
TO
CONTEST
CITATIONS; FIXING A MAXIMUM CIVIL
PENALTY FOR VIOLATIONS IN THE AMOUNT
OF TWO HUNDRED DOLLARS ($200.00) PER
VIOLATION;
DESIGNATING
THE
ADMINISTRATIVE HEARING BOARD AS THE
CODE
ENFORCEMENT
BOARD
HAVING
AUTHORITY TO DETERMINE WHETHER A
VIOLATION HAS OCCURRED; AND AMENDING
SUBSECTION
14-10(F)(4)
TO
DESIGNATE
CITATION OFFICERS; ALL EFFECTIVE SIXTY
(60) DAYS FROM PASSAGE.
WHEREAS, the Lexington-Fayette Urban
County Council (“Urban County Council”) is
concerned about the proliferation of litter and visual
blight within the community; and
WHEREAS, the Urban County Council finds
that deliveries of unsolicited written materials are
being haphazardly made throughout Fayette County,

27a
including by distributing such materials on
sidewalks, yards, and driveways, with no means to
ensure that such items do not add to the litter
problem and/or visual blight; and
WHEREAS, the Urban County Council finds
that these unsolicited written materials have
contributed to the litter and visual blight of private
premises, public streets, sidewalks, and other public
places, and that these materials, haphazardly
delivered, are damaging to private property and/or
interfere with private property; and
WHEREAS, the Urban County Council desires
to ensure that these unsolicited written materials do
not litter the streets, sidewalks, or other public
places, or yards or driveways of private premises; do
not cause visual blight in our neighborhoods; do not
damage private property; and do not interfere with
private property; and
WHEREAS, this Ordinance is an effort to
reduce unwanted litter and visual blight caused by
unsolicited written materials on public property and
the yards and driveways of private premises; to
prevent damage to private property; and to further
prevent interference with private property; and
WHEREAS, this Ordinance does not in any
way deprive or diminish a private property owner’s
right to protect his or her premises from unsolicited
or unwanted written materials.
NOW, THEREFORE, BE IT ORDAINED BY THE
COUNCIL OF THE LEXINGTON-FAYETTE
URBAN COUNTY GOVERNMENT:

28a
Section 1 -That Section 14-106 of the Code of
Ordinances be and hereby is created to read as
follows:
Section 14- 106.- Unsolicited Written Materials
(a)

Definitions. For the purpose of this section, the
following definitions shall apply unless the
context clearly indicates or requires a different
meaning.
(1)

Citation Officer. A person authorized by
state law or local ordinance to issue a
citation for a violation of this ordinance.

(2)

Front
Door.
The
street-facing
entrance(s) to a principal structure. In
the event no door faces the street, then
any other door of a principal structure
nearest the street shall be considered a
front door for purposes of this ordinance.

(3)

Porch. An exterior appendage to a
principal structure leading to a doorway,
including any stairway attached thereto.

(4)

Premises. A lot, plot, or parcel of land
including any structures, driveways, or
other impervious surfaces thereon.

(5)

Principal Structure. A structure, or
combination of structures of primary
importance on the premises, and that
contains the primary use associated
with the premises. The primary use is
characterized by identifying the main
activity taking place on the premises.

29a
(6)

(b)

(c)

Unsolicited written materials. Any
written materials delivered to any
premises without the express invitation
or permission, in writing or otherwise,
by the owner, occupant, or lessee of such
premises.

Placement of Unsolicited Written Materials.
Unsolicited written materials delivered to
premises shall be placed:
(1)

On a porch, if one exists, nearest the
front door; or

(2)

So that such materials are securely
attached to the front door; or

(3)

Through a mail slot on the front door or
principal structure, if one exists, as
permitted by the United States Postal
Service Domestic Mail Manual, Section
508 Recipient Services, Subsection 3.1.2;
or

(4)

Between the exterior front door, if one
exists and is unlocked, and the interior
front door; or

(5)

Where permitted, in a distribution box
located on or adjacent to the premises; or

(6)

Personally with the owner, occupant,
and/or lessee of the premises.

Notwithstanding subsection (b) above, an
owner, lessee, or occupant maintains the right
to restrict entry to his or her premises.

30a
(d)

Unsolicited written materials placed at a
premises create a rebuttable presumption that
the materials were placed at the premises by
the owner, agent, manager, and/or authorized
distributor of the business, product, good,
service, message, or idea, which is being
advertised, promoted, endorsed, or conveyed in
such materials.

(e)

The provisions of this ordinance do not apply to
the United States Postal Service.

(f)

Any placement of unsolicited written materials
in areas on or adjacent to a premises other than
as set forth in subsection (b) of this ordinance
shall be a violation of this ordinance, classified
as a civil offense, and may be enforced by
issuance of a civil citation by a citation officer,
consistent with Chapter 2B of the Code, or as it
may be amended.

(g)

Civil Penalty. The civil penalty for each
violation of this ordinance shall be a maximum
of two hundred dollars ($200) per violation.

(h)

Code Enforcement Board. The administrative
hearing board established in Section 12-6 of the
Code of Ordinances shall be the code
enforcement board having authority to
determine whether there has been a violation
of this ordinance. Administrative review of
citations shall adhere to those procedures set
forth in Chapter 2B of the Code through the use
of assigned hearing officer(s).

(i)

Severability. If any provision, clause, sentence,
or paragraph of this ordinance or the
application thereof to any person or

31a
circumstances shall be held invalid, that
invalidation shall not affect the other
provisions of this ordinance which can be given
effect without the invalid provision or
application, and to this end, the provisions of
this ordinance are declared to be severable.
Section 2 – That subsection 14-10(f)(4) of the
Code of Ordinances be and hereby is amended to read
as follows:
(f) Issuance of Citations. The mayor may
designate certain officers, agents, and employees,
holding the positions listed below, to issue citations
with respect to the ordinances set out for their
respective positions.
TABLE INSET:
Subsection Position Title
(4)

Code enforcement
officer, nuisance
control
officer,
code enforcement
supervisor, and
director of code
enforcement
employed in the
division of code
enforcement.

Ordinances To Be
Enforced
Code of Ordinances
sections 12-1 through
12-5, 14-105, 14-106,
article IV of chapter
17, and subsections
17-4(g) and U) of the
zoning ordinance (per
Ordinance No. 3492005).

Section 3 – That this Ordinance shall become
effective sixty (60) days from passage.
PASSED URBAN COUNTY COUNCIL:
March 2, 2017

32a
/s/
MAYOR
ATTEST:
/s/
CLERK OF URBAN COUNTY COUNCIL
PUBLISHED: March 9, 2017-1t
192-17_MC_:X:\Cases\CO\14-CC0842\LEG\
00562421.DOC

33a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
CENTRAL DIVISION LEXINGTON
LEXINGTON H-L
SERVICES, INCORPORATED,
PLAINTIFF,
Civil No. 5:17-CV-154
At Lexington, Kentucky
April 19, 2017
2:29:31 p.m.

VS.

LEXINGTON-FAYETTE
URBAN COUNTY
GOVERNMENT,
DEFENDANT.
TRANSCRIPT OF MOTION/EVIDENTIARY
HEARING BEFORE U.S. DISTRICT JUDGE
KAREN K. CALDWELL
*

*

*

[THE WITNESS RUFUS FRIDAY WAS SWORN]
DIRECT EXAMINATION
BY:

MR. PRAK:

Q.

Good afternoon, Mr. Friday.

A.

Good afternoon.

Q.
Could you please explain -- well, state
your name and address for the record, please.
A.
My name is Rufus Friday. My home
address is 928 Falling Waters Lane in Richmond,
Kentucky.

34a
Q.

And how are you employed?

A.
I’m the president and publisher of the
Lexington Herald-Leader.
Q.
And do you have an understanding as to
what motivated the government’s development of the
ordinance banning driveway delivery of unpaid
newspapers?
A.

Yes, sir, I do.

Q.

And what is that understanding?

A.
My understanding is that when we
decided to publish The Community News back in
October of 2014, we began delivery of the product,
driveway delivery. And subsequently after, we began
to receive complaints from some of the council
members in regards to their constituents calling and
complaining about delivery of The Community News.
Q.
And what did you do in response to those
complaints?
A.
Well, initially, we listened, and we made
some suggestions on some changes to our product in
that number one, we told council members that I met
with -- I met with almost all of them personally and/or
with having telephone calls just to hear their concerns
about it. And I told them there are a number of things
that we can do. And one of them was that they asked
us we could make it -- make it available for a person
to be able to call us if they did not want the product
delivered. And we did that by putting a telephone
number, as well as an e-mail address, on the front,
above the fold on the -- on The Community News
product.

35a
Q.
And why do you use driveway delivery
for The Community News?
A.
Well, economically, it is -- it’s an
economic way of delivering our products. We also use
this same method of delivery of our paid product,
Lexington Herald-Leader, as well.
And I can give you a little bit of
background in the fact that I’ve been in the business
now for almost 33 years, and 20 of those years
involved circulation, sales, and marketing and
distribution of newspapers throughout the -- my
career.
Q.
So why wouldn’t you use placement on
the porch or mailing newspapers?
A.
Well, from a -- from a -- from an economic
feasibility perspective, it is just not even feasible for
us to be able to do that. You know, it would double our
cost to make that delivery possible.
Q.
What does your paid circulation
newspaper of the Lexington Herald-Leader look like
compared to The Community News, your unpaid free
circulation paper?
A.
Well, from -- from an appearance
perspective, it is definitely sizably larger than our
Community News product, which The Community
News product averages anywhere between four and
six pages of broad sheet newsprint, whereas our paid
product, the Lexington Herald-Leader, can -- the -the smallest size will be roughly 20 up to maybe 48,
54 pages.
Q.
And do your paid and unpaid products
sometimes compare -- contain advertising supplements?

36a
MR. MOORMAN: Your Honor, I’d like
to object. I thought we were going to hear testimony
about how the content of The Community News was
the sole reason that LFUCG passed this ordinance.
All of this about circulation, that’s already in the
record. It seems like it’s a waste of time to hear all of
that.
THE COURT:
I’ll allow you to
probe into this area just a little bit, but I am
interested in the basis for the claim of content-focused
interference with speech. Please proceed.
Q.
Mr. Friday, in the conversations you had
with the members of the government in -- responding
to complaints, did they mentioned advertising to you?
A.

Yes.

Q.

Tell me how.

A.
From a standpoint of when they first
started to receive the -- when they started receiving
complaints, they wanted to call it an advertising
circular and said we’re getting complaints at our office
in regards to this advertising circular that you are
delivering. And I, in turn, made it aware to them, that
it is a newspaper. It has news and information in. It
is not strictly advertising circulars.
Q.
So did you understand them to be
complaining to you about the content of what you
were delivering to their driveway?
MR. MOORMAN: Object to the leading.
THE COURT:
I’ll overrule it. I’ll
give -- I’ll let it go to weight. Please go ahead.

37a
A.
The complaint was advertising circulars;
that was what they were complaining about.
Q.
question?

Do some -THE COURT:

May I -- may I ask a

THE WITNESS:

Yes, ma’am.

THE COURT: Did anyone disagree with
you about the content of the advertising, the kind of
advertising, the nature of it?
THE WITNESS: As far as, Your
Honor, I’m not completely following you. Could you ...
THE COURT:
Well, did anybody
disagree with any kind of message that was given by
the advertising? For example, did they complain
about the kinds of businesses that were advertising
or -- or the kinds of articles or services that were being
touted in the advertisements?

continue.

THE WITNESS:

No, Your Honor.

THE COURT:

Very

well.

Please

Q.
Mr. Friday, do some stores – stories
appear in both The Community News and the
Lexington Herald-Leader?
A.

Yes, sir.

Q.

Why is that?

A.

Why is that?

Q.

Yeah.

38a
A.
We have reporters who write news and
information, and that news and information is
provided in both products, both our paid product, as
well as our Community News product as well.
Q.
Do you have an opinion as to whether
your product impacts litter in the community?
A.
Do I have an opinion? I don’t see how it
could. I mean, it’s one of those things where what
we’ve done going back almost over two years now is to
address the concerns of the council members that
were saying that the -- there were residents that did
not want the product. And as we -- as we’ve talked
about before, we do provide a mechanism for them to
opt out of the product, whether calling us on the phone
or via e-mail.
We also have a quality assurance
process that the distribution company that delivers
the product comes back behind and will check to see
if there are any papers that have not been picked up,
and they pick those newspapers up as well.
Q.

Explain to us how that works.

A.

Explain ...

Q.

The quality assurance process.

A.
The quality assurance process. Right
now, our product has a publication delivery deadline
of every Wednesday. And once the carriers deliver the
newspapers, they -- by the end of the week or before
the following of the -- within that week, they’ll go back
through and spot-check random neighborhoods to
make sure that the product is picked up.
Their independent contractors are also
instructed that if they see a paper that has been

39a
delivered, that it wasn’t picked up the following week,
if the quality assurance staff didn’t see the paper, that
they’re not to leave a -- multiple copies in a driveway.
Q.
And have you had any problems in the
quality assurance department?
A.
I mean, any time that there is a carrier
change, there is some adjustment that is made.
But the thing -- the thing I guess I would say
more so than anything, we address any issue as
quickly as we possibly can.
Q.
Now, we were discussing with -- with the
Court earlier the number of copies.
How
many
copies of the Lexington Herald-Leader are distributed
each month?
A.
Oh. I operate off of -- off of daily
averages, and our daily average of it is anywhere
between 55 to 65,000 copies daily, and up to 80 -- over
80,000 on Sunday. So you’d have to kind of do the
math in your head to determine exactly how many
hundreds of thousands of copies of the Lexington
Herald-Leader that we deliver on a monthly basis.
Q.
And what would be the numbers be like
for The Community News?
A.
Oh. The Community News, we deliver
once a week, a hundred and -- a little over 130,000
copies per week.
Q.
And in that -- in the time you’ve been
delivering -- publishing and delivering The
Community News, do you recall receiving any
complaints about your opt out process?

40a
A.
Not any complaints about the opt out
process, no. I do -- from time -- there were -- from time
to time, we receive a complaint from somebody who
does not want the copy, and we address that as
quickly as we possibly can.
Q.

By putting them on the opt out list?

A.

Yes, sir.

Q.
Okay.
And
how
many
approximately on -- are on the opt out list?

people,

A.
Approximately, it’s a little over -- it’s a
little over a thou -- 2,000 copies, 2,000 households that
are on the list.
Q.
And do you have an opinion of whether
the delivery of your newspaper products impact safety
in the community?
A.
No, I don’t. I don’t think it addresses a
safety issue. It’s just similar to the way we deliver our
Lexington Herald-Leader.
Q.
or not?
A.

Does it pose a problem for public safety
Not that I’m aware of.

Q.
Yeah. So in your estimation, does the
distribution of your paid newspaper, the Lexington
Herald-Leader differ in any material way from your
distribution of the unpaid Community News
newspaper?
A.

No, sir.

Q.
Other than the fact that The Community
News is not solicited and that Lexington HeraldLeader is a subscription-based product primarily?

41a
A.
That is correct. The Lexington HeraldLeader is -- it’s -- it’s one of the solicited. But also, I’ll
have to bring up the fact that our Lexington HeraldLeader product is also a product that we, from a
marketing perspective, we will deliver the Lexington
Herald-Leader to non-subscribing households, as well
as all a part of our marketing program to have those
that do not subscribe to the Lexington Herald-Leader
to have an access to that by us delivering that
currently right now in the driveway with a
subscription offer in it.
Q.
So how would that work? If I’m not a
subscriber to the Herald-Leader, are you telling me I
might receive a free copy in an effort to induce me to
subscribe?
A.
Yes, sir. Yes. We provide that -- that as
another means of trying to solicit subscriptions,
similar to us doing telemarketing or door-to-door crew
operating.
Q.
Do you have an understanding as to
whether this ordinance passed by the government
would prohibit you from doing that with the
Lexington Herald-Leader?
A.
Well, on the face of what I read right
now, it would, from the standpoint of it would be
considered unwanted written material.
Q.

Be unsolicited?

A.

Unsolicited written material, yes, sir.

MR. PRAK: Excuse me, Your Honor, if I
could have a minute.

42a
Q.
Mr. Friday, is it true that the HeraldLeader contains advertising and advertising
supplements just as The Community News does?
A.

Yes, sir, that is correct.

MR. PRAK: Okay. I don’t think we have
any further questions, Your Honor.
If you have
some, we’re obviously happy to make sure you get
yours answered.
*

*

*

REDIRECT EXAMINATION
BY:

MR. PRAK:

Q.
Mr. Friday, have you ever been
contacted by any folks from the government about
problems created by your newspapers relating to
public safety?
A.

Not that I’m aware of.
*

*

*

Q.
Have you ever been contacted from
anybody from the government about problems caused
by your newspaper relating to water pollution or
water quality?
A.

Walter quality -- no, sir.

Q.
Do you know whether the people who
receive the Herald-Leader or The Community News
derive any benefit from the advertising contained in it?
A.

Not that I’m aware.
*

*

*

43a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
CENTRAL DIVISION AT LEXINGTON
CIVIL NO. 5:17-CV-154-KKC
LEXINGTON H-L SERVICES INC.
d/b/a LEXINGTON HERALD-LEADER
PLAINTIFF
VS.
LEXINGTON-FAYETTE URBAN
COUNTY GOVERNMENT

DEFENDANT

LFUCG’S RESPONSE TO THE
HERALD LEADER’S FIRST REQUESTS
FOR ADMISSION, INTERROGATORIES
AND REQUESTS FOR PRODUCTION
OF DOCUMENTS
*

*

*

4.
Please admit that you have no
knowledge of specific storm drains have been blocked
or otherwise impeded by copies of The Community
News.
RESPONSE: The LFUCG objects to this
Request as vague, as the LFUCG is not sure whether
the Request concerns storm drains that were blocked
or impeded solely by copies of The Community News,
or storm drains that were blocked or impeded by
materials which included copies of The Community
News. The LFUCG also objects to this Request to the
extent that the Request intends to suggest that for the
Ordinance to be valid and enacted in good faith the
LFUCG was required to have evidence that specific
storm drains were blocked or impeded by copies of The

44a
Community News. Subject to these objections, and
assuming the Request concerns storm drains blocked
or impeded solely because of copies of The Community
News, the Request is admitted.
If you deny that you have no knowledge of
specific storm drains that have been blocked or
impeded by copies of The Community News, please
described each storm drain that has been blocked or
impeded by copies of The Community News by
location and date.
RESPONSE: Not applicable.
5.
Please admit that you have no record of
any criminal activities at residences within Fayette
County in which a copy of The Community News was
located in the driveway or yard of the residence at the
time of the crime.
RESPONSE: The LFUCG objects to this
Request to the extent that the Request is intended to
suggest that for the Ordinance to be valid and enacted
in good faith the LFUCG was required to have
evidence that a crime was committed at one or more
residence while a copy of The Community News was
in the driveway or yard of the residence. Subject to
this objection, this Request is admitted.
*

*

*

45a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF KENTUCKY
CENTRAL DIVISION AT LEXINGTON
CIVIL ACTION NO. 5:17-CV-00154-KKC
LEXINGTON H-L SERVICES, INC.
d/b/a LEXINGTON HERALD-LEADER

PLAINTIFF

VS.
LEXINGTON-FAYETTE URBAN
COUNTY GOVERNMENT

DEFENDANT

DEPOSITION OF RONNIE BASTIN
Pursuant to Notice, the deposition of RONNIE
BASTIN was taken on behalf of Plaintiff before
Sandra L. Allyn, RPR, CCR and Notary Public in and
for the Commonwealth of Kentucky at Large, at the
offices of Frost Brown Todd, LLC, 250 West Main
Street, Suite 2800, Lexington, Kentucky, on
Thursday, April 26, 2018, commencing at the hour of
9:02 a.m.
*

*

*

Q.
Okay. Let me put in front of you a
document we’ll mark as Exhibit No. 1, and you take
an opportunity to look at it.
Have you had a chance to look at it?
A.

I have.

Q.
And does Exhibit 1 look like something
you’ve seen before?
A.

It does.

46a
Q.
this case?
A.

Would it be a copy of your declaration in
It would be.

Q.
Okay. And can you tell me -- I believe I
understood your testimony to be that you did not
write this -- these words out, but that you had a
conversation -A.

Yes.

Q.

-- with somebody in the law department

A.

Yes.

--

Q.
-- or Mr. Moorman, one of the group, and
that this was prepared and you reviewed it and you
felt it was fair and accurate?
A.

It is.

Q.
Okay. And I want to ask you now some
questions about different paragraphs in the
document.
If I could, I’d like to direct your attention
to paragraph 5. You state there that unsolicited
deliveries are a greater concern than solicited
deliveries, and then you give reasons as to why you
believe that’s so.
A.

Uh-huh.

Q.
Would you agree with me that a solicited
delivery that continues while a homeowner is gone
presents the same kind of potential problem for a
potential burglar as an unsolicited delivery?
A.

Yes.

47a
Q.
That is to say if there are 14 days’ of
newspapers piled up that were solicited, it would
present the same problem?
A.

That’s correct.

Q.
That’s fair? I need an audible response.
Do you think that’s fair?
A.

Yes, I do.

Q.
Okay. And so the problem is not
necessarily unsolicited deliveries per se, but the fact
that if they’re unsolicited for some of the reasons you
describe, they may be more likely to pile up. Isn’t that
right?
A.

That’s correct.

Q.
And it’s true, is it not, that if there is a
mechanism by which the unsolicited delivery could be
stopped, then that would solve the problem, would it
not?
MR. MOORMAN: Object to the
form. You can answer. You can answer.
A.
Well, if it reduces the amount of material
left that could be viewed by a potential -- someone
casing a particular location, yes.
Q.
Right. In other words, if the homeowner
has an opportunity to tell the distributor of the
Community News not to deliver it to them, that would
put you functionally on all fours with a solicited
delivery, would it not?
MR. MOORMAN: Object to the
form.

48a
A.
Yes. If there’s a mechanism to stop it and
keep those from collecting.
Q.
So as a matter of public policy and
common sense, having the ability not to have these
indicia of either someone not being home or, as I think
you mentioned in your declaration, somebody perhaps
being infirm and unable to get out to their driveway
to remove things is -- is capable of being solved by
having an opt-out option?
MR. MOORMAN: Object to the

form.
A.

Yes.
*

*

*

49a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF KENTUCKY
CENTRAL DIVISION AT LEXINGTON
CIVIL ACTION NO. 5:17-CV-00154-KKC
LEXINGTON H-L SERVICES, INC.
d/b/a LEXINGTON HERALD-LEADER

PLAINTIFF

VS.
LEXINGTON-FAYETTE URBAN
COUNTY GOVERNMENT

DEFENDANT

DEPOSITION OF WILLIAM FARMER
Pursuant to Notice, the deposition of
WILLIAM FARMER was taken on behalf of Plaintiff
before Sandra L. Allyn, RPR, CCR and Notary Public
in and for the Commonwealth of Kentucky at Large,
at the offices of Frost Brown Todd, LLC, 250 West
Main Street, Suite 2800, Lexington, Kentucky, on
Friday, April 27, 2018, commencing at the hour of
8:52 a.m.
*

*

*

A.
I was a 5th District city council member
for 10 years. Then I was off for two two-year terms,
and then I’ve been on for four two-year terms.
Q.
So let me try to see if I have the timeline
right. ’96 through 2006 continuously as a council
member?
A.

Yes. Yeah. Yes, sir.

Q.
And then you were off the council for
four years through 2010?

50a

term.

A.

Yes, sir.

Q.

And then reelected in 2010?

A.

I’ve been reelected each -- each two-year

Q.

Since 2010?

A.

Yes, sir.
*

*

*

Q.
And how would you describe your own
feeling about the passage of the ordinance?
A.
I felt from the beginning that this was
a -- and I give reference in my comments here -- this
was a logistically solvable problem, and I felt like the
ordinance went too far when it didn’t need to.
Q.
how it did.

And when you say it went too far, tell us

A.

Well, I mean...

Q.

In your mind.

It bans driveway distribution of the
Community News. Is that right?
A.
Well, I’m just -- yeah. Yes, it does. And
we could read through that part too. I guess...
Q.
So how did it go too far is the question
that’s on the table.
A.
To me, I didn’t see the need to regulate
something that I felt could be fixed, and that was kind
of, you know, where I still am. I mean, I felt like there
was a way to -- giving -- given my view of what I

51a
thought we were doing, okay, there was a way to
remedy rather than regulate.
Q.
ordinance?

So

remedy

rather

than

pass

the

A.

Yes, sir.

Q.

The way it was presented to the council?

A.

Yes, sir.

Q.
And what in your mind would have been
that way to remedy without passing the ordinance?
A.
Well, I mean, as you look at one of the
other documents, there was a comment about giving
six months for something to happen. I mean,
obviously, the council was trying to, at different
points I would say, work with the newspaper, as it
were, because this wasn’t an issue, but then suddenly
it was because there was a lot of -Rufus.

THE DEPONENT:

And I’m sorry,

A.
-- a lot of litter laying around, and people
didn’t like it, including my constituents. And I was
alarmed by it, too, and didn’t like that. But I think
that’s the value of conversation, communication, and
outcome. You can fix that, in this instance, by me.
Q.
Do you have any understanding of
efforts that were made by the Community News and
its owner, the Herald-Leader, to use its opt-out
mechanism to try to remedy the problem before the
ordinance was passed?
A.
Not with specificity, but I know that
there was a way to do that, and that became some of

52a
the answers we would give to constituents on an
individual basis if this was a problem to them.
I mean, it just -- you do this job to help
people with certain -- whether they’re individual
problems or large problems. And if there’s -- this is
one that was -- we could help them opt out, we would,
or refer for them how to do that.
Q.
And did you feel that that process that
you’re talking about helping them opt out or
otherwise remedy their expressions to you about the
Community News was progressing?
A.
Yeah. This is a bell curve. This was
nothing, it became something, and as we began to find
a way to help them opt out, it went down. I mean, I
think that’s just the nature of issues coming to the
fore, being remedied, and moving on.
Q.
Without the need to pass an ordinance
like this one?
A.

In my opinion.
*

*

*

